<html>
<title> - THE PENDING FREE TRADE AGREEMENTS WITH COLOMBIA, PANAMA, AND SOUTH KOREA AND THE CREATION OF U.S. JOBS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   THE PENDING FREE TRADE AGREEMENTS 
                 WITH COLOMBIA, PANAMA, AND SOUTH KOREA 
                     AND THE CREATION OF U.S. JOBS 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 25, 2011

                               __________

                           Serial No. 112-02

                               __________

         Printed for the use of the Committee on Ways and Means


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-469 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




























                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

WALLY HERGER, California             SANDER M. LEVIN, Michigan
SAM JOHNSON, Texas                   CHARLES B. RANGEL, New York
KEVIN BRADY, Texas                   FORTNEY PETE STARK, California
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
GEOFF DAVIS, Kentucky                XAVIER BECERRA, California
DAVID G. REICHERT, Washington        LLOYD DOGGETT, Texas
CHARLES W. BOUSTANY, JR., Louisiana  JOHN B. LARSON, Connecticut
DEAN HELLER, Nevada                  EARL BLUMENAUER, Oregon
PETER J. ROSKAM, Illinois            RON KIND, Wisconsin
JIM GERLACH, Pennsylvania            BILL PASCRELL, JR., New Jersey
TOM PRICE, Georgia                   SHELLEY BERKLEY, Nevada
VERN BUCHANAN, Florida               JOSEPH CROWLEY, New York
ADRIAN SMITH, Nebraska
AARON SCHOCK, Illinois
CHRIS LEE, New York
LYNN JENKINS, Kansas
ERIK PAULSEN, Minnesota
RICK BERG, North Dakota
DIANE BLACK, Tennessee

                       Jon Traub, Staff Director

                  Janice Mays, Minority Staff Director





























                            C O N T E N T S

                               __________
                                                                   Page

Advisory of January 18, 2011 announcing the hearing..............     2

                               WITNESSES

Roy Paulson, President, Paulson Manufacturing Corporation, on 
  behalf of the National Association of Manufacturers............     8
Bob Stallman, President, American Farm Bureau Federation.........    18
Michael L. Ducker, Chief Operating Officer and President, 
  International, FedEx Express...................................    30
William J. Toppeta, President, International, MetLife............    42
Stephen E. Biegun, Corporate Officer and Vice President of 
  International Governmental Affairs, Ford Motor Company.........    56

                       SUBMISSIONS FOR THE RECORD

Securities Industry and Financial Markets Association............   102
Emergency Committee for American Trade...........................   113
National Oilseed Processors Association..........................   120
California Table Grape Commission (Colombia).....................   126
California Table Grape Commission (Korea)........................   127
American Forest & Paper Association..............................   128
USA Rice Federation..............................................   131
National Grain and Feed Association..............................   134
Distilled Spirits Council of the United States, Inc..............   141
National Pork Producers Council..................................   146
PepsiCo..........................................................   150
American Natural Soda Ash Corporation............................   151
Campbell Soup Company............................................   152
ConAgra Foods....................................................   155
American Association of Port Authorities.........................   159
International Dairy Foods Association............................   161
Intel Corporation................................................   165
Corn Refiners Association........................................   169
Herbalife Ltd....................................................   171
National Cattlemen's Beef Association............................   173
National Potato Council..........................................   174
Council of the Americas..........................................   175
California Coalition for Free Trade..............................   176
Public Citizen's Global Trade Watch..............................   179
American Meat Institute..........................................   189
Financial Services Roundtable....................................   193
National Milk Producers Federation & U.S. Dairy Export Council...   194
Retail Industry Leaders Association..............................   197
American Manufacturing Trade Action Coalition, National Textile 
  Association, U.S. Industrial Fabrics Institute, American Fiber 
  Manufacturers Association......................................   206
Association of Colombian Flower Exporters........................   210
Advanced Medical Technology Association..........................   211
American Apparel & Footwear Association..........................   220
Consumer Electronics Association.................................   223
California Chamber of Commerce...................................   224
Otis McAllister..................................................   225


                   THE PENDING FREE TRADE AGREEMENTS
                 WITH COLOMBIA, PANAMA, AND SOUTH KOREA
                     AND THE CREATION OF U.S. JOBS

                              ----------                              


                       THURSDAY, JANUARY 25, 2011

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m., in 
Room 1100, Longworth House Office Building, the Honorable Dave 
Camp [chairman of the committee] presiding.
    [The advisory of the hearing follows:]

HEARING ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                 Camp Announces Hearing on the Pending

 Free Trade Agreements with Colombia, Panama, and South Korea and the 
                         Creation of U.S. Jobs

January 18, 2011

    House Ways and Means Committee Chairman Dave Camp (R-MI) today 
announced that the Committee on Ways and Means will hold a hearing on 
the pending free trade agreements with Colombia, Panama, and South 
Korea and the creation of U.S. jobs. The hearing will take place on 
Tuesday, January 25, 2011, in 1100 Longworth House Office Building, 
beginning at 10:00 A.M.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing. A list of invited 
witnesses will follow.
      

BACKGROUND:

      
    In 2007, the United States concluded trade agreements with 
Colombia, Panama, and South Korea. Ways and Means has not held a 
hearing on any of the three completed trade agreements.
      
    Each of the three trade agreements would open new markets to U.S. 
exports and, in turn, benefit American businesses, farmers, workers, 
and consumers. The independent U.S. International Trade Commission has 
estimated that the three pending trade agreements, combined, would 
increase U.S. exports by at least $13 billion. The benefits of trade 
agreements are also long lasting. Since 2000, U.S. exports to the 13 
countries with which the United States has implemented trade agreements 
have grown almost twice as fast as our worldwide exports.
      
    Colombia, Panama, and South Korea have all concluded trade 
agreements with major trading partners and export competitors of the 
United States, so U.S. failure to implement our own trade agreements 
with these countries could severely disadvantage U.S. exporters and 
jeopardize U.S. job creation. For example, the Colombia-Canada free 
trade agreement is expected to enter into force in July of this year, 
removing significant Colombian tariffs for Canadian agriculture 
exporters while similar tariffs remain in place against U.S. 
agriculture exports. Colombia has also implemented trade agreements 
with Argentina, Brazil, and the MERCOSUR countries. Similarly, Panama 
has signed trade agreements with Canada and the European Union, which 
remove a number of key barriers to their exports. The EU-Korea free 
trade agreement is also expected to enter into force by July 2011 and 
would provide European manufacturers and service providers with 
preferential access to one of the most dynamic economies in Asia, to 
the detriment of U.S. exports.
      
    Over the years, several objections have been raised to these 
agreements. With respect to Colombia, some have argued that sustained 
progress to address violence against workers in Colombia and concerns 
about Colombian labor law must occur before it is appropriate to 
consider the agreement. However, supporters of the agreement argue that 
passing the agreement will improve labor protections and express 
frustration the Administration has not identified concrete steps for 
Colombia to take to address concerns. Concerns have also been raised 
about Panama's refusal to provide the United States with certain 
information needed to enforce U.S. tax laws. In November, the United 
States and Panama signed a Tax Information Exchange Agreement to 
address that concern. With respect to South Korea, many stakeholders 
argued that the auto provisions of the original agreement were 
insufficient. In December, the United States and South Korea reached a 
supplemental agreement addressing those concerns.
      
    In announcing this hearing, Chairman Camp said, ``Trade agreements 
are a sure-fire way to support U.S. jobs and boost economic growth by 
creating new markets for U.S. goods and services, particularly at a 
time when unemployment is nearly ten percent. The United States cannot 
afford to sit on the sidelines while the rest of the world is actively 
concluding new trade agreements that leave us out. The first step to 
getting back on the field is passing these trade agreements. It is time 
for the President to submit the three pending trade agreements to 
Congress for their consideration within six months.''
      

FOCUS OF THE HEARING:

      
    The focus of the hearing is on Congressional consideration of the 
pending trade agreements and the benefits these agreements will bring 
to American businesses, farmers, workers, consumers, and the U.S. 
economy. The hearing will also explore developments with each of these 
countries that have occurred since the trade agreements were concluded.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word or 
WordPerfect document, in compliance with the formatting requirements 
listed below, by the close of business on Thursday, February 8, 2011. 
Finally, please note that due to the change in House mail policy, the 
U.S. Capitol Police will refuse sealed-package deliveries to all House 
Office Buildings. For questions, or if you encounter technical 
problems, please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman CAMP. The committee will now come to order for the 
previously scheduled hearing on our three pending trade 
agreements and their job creation benefits.
    I would like to welcome all of you to the first trade 
hearing of the 112th Congress in which we will examine the 
three pending trade agreements, agreements that were all 
concluded in 2007, almost 4 years ago.
    I also expect to have Ambassador Kirk appear before the 
committee in the near future to talk about these agreements and 
our trade agenda.
    I would like to take a moment to welcome in particular 
Ambassador Silva from the Embassy of Colombia, as well as 
representatives from the Embassies of Panama and the Republic 
of Korea. I thank you all for attending and for being such 
strong advocates for these agreements because of the strong 
ties they will create between our countries.
    Given the delay in considering these agreements, I welcomed 
the President's announcement last June of a clear timetable for 
resolving the outstanding issues surrounding the South Korea 
agreement. Mr. Levin and I worked closely together with 
stakeholders and the administration to arrive at a compromise 
that resolved the outstanding auto issues in the U.S.-South 
Korea trade agreement. Unfortunately, the administration has 
not taken the same productive approach to the Colombia and 
Panama agreements; and I hope the President lays out such a 
timetable in his address tonight.
    I strongly believe that we should consider all three 
agreements in the next 6 months. This deadline isn't being 
driven by politics or posturing. It is driven by the need to 
create jobs for American workers. The three trade agreements 
are a sure-fire way to create American jobs by growing U.S. 
exports of goods and services and does not require one dime of 
new government spending.
    The President has noted that the South Korea agreement 
alone will create 70,000 American jobs. However, until Congress 
passes the agreements, our workers can't realize these 
benefits. Continued delay also hinders the ability of American 
workers, businesses, and farmers to compete in these markets as 
our competitors move ahead.
    Last May, then agriculture Ranking Member Lucas and I 
released a report documenting how the delay in implementing the 
Colombian agreement allowed Argentina and Brazil to take market 
share from U.S. farmers in the Colombian market as they 
implemented their trade agreement with Colombia. I have just 
released an updated analysis showing that the ongoing delay has 
caused U.S. exports to Colombia to decline even further. This 
updated report also demonstrates that in stark contrast, the 
existing U.S.-Peru agreement has resulted in increased U.S. 
exports and increased market share. If we implement the 
Colombian agreement, we can enjoy similar gains as we are 
seeing in the Peruvian market.
    Other major economies, including the EU and Canada, have 
signed or are poised to sign agreements with Colombia, Panama, 
and South Korea. The EU-South Korea agreement is slated to 
enter into force on July 1st of this year. The Canada-Colombia 
trade agreement is also expected to enter into force this July. 
Implementation of their agreements, and continued inaction on 
our agreements, will result in further missed opportunities to 
create U.S. jobs. America cannot afford to fall further behind, 
and by standing still we are doing just that. In these 
difficult economic times, Congress and the Administration owe 
it to American workers, businesses, and farmers to take all 
available steps to increase exports in the jobs they support.
    These agreements create new exports and resulting jobs in 
several ways.
    First, they level the playing field for American workers by 
reducing foreign tariffs on U.S. exports. In fact, we enjoy a 
manufacturing trade surplus with our trade agreement partners. 
For some partner countries, the trade agreements have taken us 
from a deficit before implementation to a surplus afterward. 
The simple fact is that nearly all imports from Colombia and 
Panama already enter the United States duty free and U.S. 
exports to all three countries pay much higher tariffs than 
exports from those countries to the United States. These 
agreements would eliminate or substantially lower the tariffs 
on U.S. exports in all sectors, making our products more 
competitive.
    Second, the agreements remove existing non-tariff barriers 
and go a long way towards ensuring new barriers do not emerge. 
The agreements set standards to ensure sanitary and 
phytosanitary rules in agriculture are not used for 
protectionist purposes, provide strong protections for 
intellectual property rights, and encourage greater regulatory 
harmonization and the use of international standards.
    Third, as I have noted, these agreements maintain and 
improve U.S. competitiveness vis-a-vis exporters from other 
countries. Failure to implement the three pending trade 
agreements risks putting U.S. exporters at a competitive 
disadvantage in these markets, costing American jobs and 
slowing job creation.
    Finally, I want to note that it is not just big companies 
that benefit from these agreements. More than 80 percent of the 
exporters to each of the three markets are small- or medium-
sized businesses with fewer than 500 employees. In many ways, 
these dynamic businesses and their employees have the most to 
gain from these agreements and the most to lose if we delay.
    I would like to welcome our witnesses, who represent the 
full spectrum of U.S. agriculture, manufacturing, and services 
interests, including both large and small businesses; and I 
look forward to your testimony.
    At this time, I will yield to Ranking Member Levin for the 
purposes of an opening statement.
    Mr. LEVIN. Thank you very much, Mr. Chairman.
    While from the outset most Republicans have been calling 
for immediate passage of all free trade agreements as 
originally negotiated by President Bush, we have been working 
hard at fixing them. Our approach on the Democratic side was 
that each of the FTAs as originally negotiated did not embody a 
trade policy responsible to the changing dynamic of a 
globalized economy and to the best interest of the American 
people. Trade agreements need to be shaped so that as trade 
expands the benefits are spread more broadly.
    The intervening period since the initial negotiation of the 
FTAs has been for us in the Democratic ranks one of action, not 
of inaction. It has been an intensive effort to get trade 
policy right, and it has been working. We changed for the 
better the Peru FTA before its passage. We have substantially 
improved the Korea FTA, and we should have in the coming months 
the implementation language for consideration and approval. 
There is now the prospect of successfully addressing the tax 
haven and labor law concerns with the Panama FTA.
    With respect to the Colombia agreement, the new Santos 
administration has now articulated a new approach which 
provides an opportunity to address the serious concerns--and I 
underline them--consistently expressed by us regarding that 
FTA.
    We believe that each trade agreement should be considered 
on its own merits, not lumped together where key issues are 
ignored, as some would be willing to do. It was because of our 
efforts that enforceable worker rights and environmental 
standards were added to the U.S.-Peru FTA. As a result, labor 
conditions are improving in Peru. And while significant work 
remains to be done to implement and enforce the agreement's 
environmental provisions, as a result of that amended FTA Peru 
has created a new Ministry of Environment, reformed its 
forestry oversight agency, revised its criminal laws to 
strengthen penalties for environmental crimes, deployed 3,000 
police officers, and created new offices for environmental 
prosecutors.
    The agreement was also revised to balance the need to 
encourage innovation with the need to provide access for 
Peruvian citizens to affordable medicines.
    Importantly, the Peruvian government made necessary changes 
to its labor laws before the vote on the FTA, which was then 
passed by Congress with bipartisan support and signed by the 
President.
    Because of our efforts, the U.S.-Korea FTA is finally being 
fixed to open up markets where they were closed and to end one-
way trade. For decades, Korea has employed a unique and ever-
changing regulatory regime to discriminate against our auto 
imports, while the U.S. market has been open to their goods. As 
a result, U.S. automakers exported less than 6,000 cars to 
South Korea in 2009. In contrast, South Korean automakers have 
been able to use their historically closed markets to finance 
an aggressive push into the U.S. market, exporting 476,000 cars 
to the U.S. in 2009. The imbalance is so severe that automotive 
trade accounts for 75 percent of the $10.6 billion U.S. trade 
deficit with Korea.
    The Republican majority long ago would have simply again 
accepted a flawed agreement. Fortunately, last year, with the 
support of Members of Congress, including our chairman, the 
automakers, and the UAW, the Obama administration negotiated an 
additional agreement that will provide U.S. automakers and part 
suppliers with a real opportunity to compete and succeed in the 
Korean market. With the changes achieved through the additional 
agreement, the U.S. auto industry, Ford, Chrysler, GM, and the 
UAW are supporting that agreement.
    Because of our efforts, we used the intervening period to 
address legitimate issues in the Panama FTA. Through the 
intensive efforts led by Representative Doggett and Senator 
Levin, the Obama administration successfully concluded a tax 
information exchange agreement in November, 2010, to address 
Panama's status as a tax haven. That agreement still needs to 
be ratified by Panama.
    This administration has also been working to ensure that 
Panama's labor laws comply with the FTA obligations, a process 
we started way back in 2007. Because of our efforts, there are 
now important labor law changes pending before the Panamanian 
legislature. If the approach had been followed by those who 
pushed for the immediate passage of the Panama FTA, we would 
have failed to address a tax haven country or to improve labor 
standards in Panama.
    A few days ago, I returned from 5 days of fact finding on 
the ground in Colombia meeting with widely diverse citizen 
groups and government leaders. I went 20 months ago, and I 
thought it important to compare conditions then and now. It is 
clear that the intervening period was important in focusing 
attention on serious concerns standing in the way of support 
for the Colombia FTA. Those issues include violence and 
intimidation in cases involving the exercise of human, 
political, and labor rights by workers and their leaders, a 
high level of impunity in such cases, and the failure to reform 
the legal and administrative structures relating to the 
exercise of basic international worker rights.
    Throughout my discussion, there seemed to be wide agreement 
that the new Colombian government--the new Colombian 
government--was expressing a different approach than its 
predecessor on these critical concerns. I believe there is now 
an opportunity for the two governments to work together 
mutually to achieve real progress on the ground.
    In closing, I say to the Republican majority, you may have 
been willing to press flawed trade agreements, but we were not. 
We went about fixing Peru, Panama, and Korea. It was time well 
spent. Instead of criticizing, there should be acknowledgement 
of the meaningful breakthroughs; and we should be working 
together to implement the U.S.-Korea Free Trade Agreement.
    I close with this. Today's hearing is about trade policy 
and jobs. Yet there are other trade initiatives that have a 
serious impact on U.S. jobs. Much has been said in recent weeks 
criticizing House Democrats' focus in particular on China's 
currency manipulation. Well, we focused on it because it 
matters. China's undervalued currency has been estimated to 
cost the U.S. 500,000 to 1.5 million jobs.
    According to the NAM--and I quote--the number one factor 
affecting their exports is the value of the dollar. I was 
pleased to work with Chairman Camp last fall on currency, an 
effort that resulted in majorities of both parties supporting 
the currency bill. I hope we can continue that effort this year 
while we also work on China's other trade-distorting practices, 
including its massive subsidies, its failure to enforce 
intellectual property rights, its discrimination in government 
procurement, and its indigenous innovation policies. Let me 
repeat that we must address each trade issue on its own merits 
and move forward to grow our economy and American jobs and to 
compete internationally.
    Thank you, Mr. Chairman.
    Chairman CAMP. Thank you.
    Today we are joined by five witnesses.
    Our first witness will be Roy Paulson, who is President of 
Paulson Manufacturing Corporation, a small manufacturing 
business in Temecula, California. Mr. Paulson is also 
testifying today on behalf of the National Association of 
Manufacturers, and we welcome you to the committee.
    After him, we will hear from Bob Stallman. Mr. Stallman is 
President of the American Farm Bureau Federation and a rice and 
cattle producer from Columbus, Texas.
    Our third witness will be Michael Ducker, Chief Operating 
Officer and President, International, at Federal Express.
    Fourth, we will hear from William Toppeta, President, 
International, with MetLife.
    And, last, we will hear from Steve Biegun, who is a 
Corporate Officer and Vice President of International 
Governmental Affairs at the Ford Motor Company.
    We welcome all of you, and we look forward to your 
testimony. And I would ask that our witnesses keep their 
testimony to 5 minutes.
    Mr. Paulson, your written statement, like those of all of 
the witnesses, will be made a part of the record; and you are 
recognized for 5 minutes.

  STATEMENT OF ROY PAULSON, PRESIDENT, PAULSON MANUFACTURING 
     CORPORATION, ON BEHALF OF THE NATIONAL ASSOCIATION OF 
                         MANUFACTURERS

    Mr. PAULSON. Thank you very much.
    Good morning, Chairman Camp, Ranking Member Levin, Members 
of the Committee. I am Roy Paulson, President of Paulson 
Manufacturing; and I am pleased to testify as a member of the 
board of directors of the National Association of 
Manufacturers. I have a prepared statement for the record and 
some brief remarks to make at this time.
    Paulson Manufacturing is a manufacturer of safety 
equipment, specializing in eye and face protection. This is a 
family business with about 140 employees, yet it is a high-
technology business that utilizes state-of-the-art equipment 
and modern methods. You have seen our products many times as 
the face shields worn on firemen's helmets and the heat-
reflective face shields worn by steelworkers in steel mills. 
What you have not seen are the many forms of eye and face 
protection used in so many ways from medical surgery to high 
technology.
    We have an expanding business that is thriving even in the 
difficult economy. We design and manufacture our products in 
California with domestic materials and local labor. I am able 
to compete domestically and abroad with my product line as long 
as I am selling innovative, cutting-edge products. The keys are 
innovation, quality, and customer service.
    As I moved into the international markets, I brought along 
our business philosophy. I discovered that I could successfully 
sell to most countries with the proper application of our 
business methods and a large dose of patience. This helped to 
develop our long-term relations with our foreign customers, and 
we have been successful at building our distribution and 
creating repeat sales in many countries.
    Exports are tremendously important to my company. We export 
to 80 countries, and exports are now one-fourth of our 
business. I want to build on that, because markets around the 
world are growing faster than the domestic U.S. market.
    For small business to export more, foreign trade barriers 
must come down. That can only happen if we get trade agreements 
that will level the playing field and get rid of these 
barriers. Tariffs on U.S.-made products, including my company's 
products, are much higher in most foreign markets than 
corresponding U.S. tariffs on the imports products. When we 
enter a trade agreement, our barriers drop very little. 
However, the other countries high tariff barriers drop a lot, 
as they go to zero. That is why trade agreements are a no-
brainer to me.
    I truly don't understand congressional reluctance, 
especially since the Commerce Department's figures show the 
U.S. has a manufacturing goods trade surplus with our free 
trade partners. Over the past 3 years, that surplus has 
accumulated to over $60 billion.
    There seems to be a myth in Washington that trade 
agreements caused the U.S. trade deficit and cost 5 million 
jobs. Frankly, even spending 5 minutes with the statistics 
shows that this is just plain wrong.
    I am one of those people who hope that Washington will act 
on facts, not on mythology. One good idea would be for this 
committee to ask the Commerce Department to brief you on the 
facts of trade, in fact, brief the entire House.
    I hope that you will look more closely at my prepared 
statement, which has a lot of facts about how these trade 
agreements are helping manufacturing in America.
    Now I would like to talk about my company, Paulson 
Manufacturing. We sell to all three of the countries where the 
U.S. has signed free trade agreements that have not yet been 
passed by Congress. In Panama, I face a 6 percent tariff; in 
Korea, 8 percent; in Colombia, 20 percent. I could sell a lot 
more to my customers if I could get my products in duty free, 
and I could find more customers in those countries. That means 
my sales would go up. I would gain on my competitors and could 
even be able to expand my workforce. My nightmare is that my 
competitors will get free trade agreements first, get in duty 
free, and I will lose out.
    Some people think that trade only benefits large companies. 
Absolutely untrue. I am here before you as an example, 140 
employees and selling to 80 countries around the world.
    A lot of smaller companies in the NAM also export. I am on 
the District Export Council and many other export groups. We 
all export, and we want to export more. Fully 95 percent of all 
exporters, including to our free trade partners, are small- to 
medium-sized businesses. We are all frustrated by this body, 
and it has been keeping us from expanding our sales and our 
workforce.
    I need those trade agreements, and I want the government to 
move ahead with the Trans-Pacific Partnership and open these 
markets. I want you to also open up Brazil, India, and other 
markets to me. I want my company and family of employees to 
grow and prosper. To achieve that, I have to sell to more 
markets.
    Thank you very much for your time and for listening. I am 
ready to answer your questions at the end of everyone's 
remarks.
    [The prepared statement of Mr. Paulson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman CAMP. Thank you.
    Our next witness will be Bob Stallman. You have 5 minutes, 
and your written statement will be made a part of the record.

  STATEMENT OF BOB STALLMAN, PRESIDENT, AMERICAN FARM BUREAU 
                           FEDERATION

    Mr. STALLMAN. Thank you, Mr. Chairman, Ranking Member 
Levin, Members of the Committee. I am Bob Stallman, President 
of the American Farm Bureau Federation and a rice and cattle 
producer from Texas. I appreciate the invitation to share the 
Farm Bureau's views on the three pending free trade agreements 
and their benefits to U.S. agriculture.
    The Farm Bureau is the Nation's largest general farm 
organization, with more than 6 million member families 
representing producers of nearly every commodity grown or 
raised commercially in all 50 States and Puerto Rico. We 
support passage of the Korea, Colombia, and Panama trade 
agreements with the United States. Combined, these agreements 
represent almost $3 billion in additional trade for U.S. 
agricultural producers, but that is only if they are 
implemented.
    The U.S. is facing a proliferation of FTAs, increasing the 
export potential of our competitors while putting U.S. 
agriculture at a disadvantage. Due to the administration and 
Congress' inaction on these agreements, the debate is no longer 
simply about generating potential export gains, but it is now 
about how to prevent the loss of existing export markets.
    These trade agreements are not only important to the bottom 
line of America's farmers and ranchers. They are important to 
the economic health of our rural communities and the overall 
U.S. economy.
    The USDA estimates that every billion dollars in 
agriculture exports supports 9,000 U.S. jobs. There is a long 
supply chain made up of American workers who get products from 
the farm gate to our foreign consumers. A decline in our 
exports means a decline in work for those that are a part of 
that supply chain. Given the state of our economy, we must do 
whatever we can to assure we are creating opportunities for 
work, not taking them away.
    The U.S.-Korea Free Trade Agreement provides a significant 
opportunity for the U.S. agricultural sector. When the 
agreement is fully implemented, we estimate export gains to 
exceed $1.8 billion annually.
    Korea has completed an agreement with the European Union 
which is expected to be implemented by July of 2011. The Korea-
EU FTA in 5 years will eliminate 94 percent of Korea's tariffs. 
In contrast, the KORUS would eliminate 94.5 percent of Korea's 
tariffs in 3 years of implementation. If the Korea-EU FTA 
agreement enters into effect before the KORUS, European 
exporters will gain a significant competitive advantage over 
the United States in the Korean market.
    Loss of market share in Korea because of U.S. competitors' 
preferential access has become a reality for some segments of 
the U.S. agriculture. Wine consumption has been increasing in 
Korea. During the 2000 and 2009 period, Chilean market share by 
value rose from 2.4 percent to 21.5 percent, while the U.S. 
share fell from 17.1 percent to 10.8 percent. This is believed 
to be the direct result of the 15 percent import duty 
eliminated on Chilean wine under the Korea-Chile Trade 
Agreement implemented in 2004.
    The Colombia Trade Promotion Agreement eliminates Colombian 
tariffs on U.S. agriculture products, correcting the current 
imbalance in agricultural trade between our countries created 
in part by congressional passage and extension of the Andean 
Trade Preference Act. Our analysis of the agreement suggests 
gains in exports from this agreement of $815 million.
    While U.S. agriculture continues to wait for passage of the 
agreement, U.S. market share has been slipping in Colombia due 
to our competitors implementing their own trade agreements. 
According to the USDA, between 2008 and 2009 we have seen 
almost a 50 percent drop in our exports, from 1.6 billion to 
906 million. According to Colombia's National Department of 
Statistics, our peak market share was 46 percent in 2008, while 
in 2010 it dropped to 21 percent, being taken over by 
Argentina. In other words, the United States has already blown 
a major trade opportunity and will need to work hard to ever 
return to our earlier status.
    As a further example, traditionally, the United States has 
been the top supplier of corn, wheat, and soybeans. In terms of 
market share, Colombia statistics shows that the U.S. market 
share went from a peak of 76 percent in 2000 to just 27 percent 
in 2010, again being taken over by Argentina, with some 
competition also from Brazil.
    Under the Panama agreement, we estimate increased exports 
for the U.S. agricultural exports to exceed $195 million. 
Panama has completed a trade agreement with Canada. If this 
agreement enters into effect before the U.S. agreement, 
Canadian exporters will gain a significant competitive 
advantage over the United States for many products we can 
export.
    Mr. Chairman, just to restate, these agreements contain 
significant export gains for U.S. agriculture that will only be 
realized by passage and implementation. Conversely, the 
inaction has proven to result in loss of market share and 
forfeiture of economic growth here. The U.S. government's 
inability to move these agreements benefits our foreign 
competitors and harms us. We urge that this Congress and the 
administration support and pass these agreements now and take 
full advantage of the economic opportunity they offer 
throughout the United States.
    Thank you for the opportunity to share our views.
    [The prepared statement of Mr. Stallman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman CAMP. Thank you. Thank you very much.
    Mr. Ducker, you are also recognized now for 5 minutes; and 
your written statement is part of the record as well.

  STATEMENT OF MICHAEL L. DUCKER, CHIEF OPERATING OFFICER AND 
            PRESIDENT, INTERNATIONAL, FEDEX EXPRESS

    Mr. DUCKER. Good morning. Thank you very much, Chairman 
Camp, Ranking Member Levin, distinguished members of the House 
Committee on Ways and Means.
    I am Mike Ducker. I am the Chief Operating Officer and 
President, International, for FedEx Express. I also serve as 
the Chairman of the U.S. Chamber's International Policy 
Committee and am a member of its board of directors. The 
Chamber serves as secretariat for both the U.S.-Korea FTA 
Business Coalition and the Latin American Trade Coalition, 
which represents hundreds of American companies, business, and 
agricultural organizations and chambers of commerce that 
support approval of the pending free trade agreements.
    As you have heard, I have submitted written testimony for 
the record, but I am honored to be here today and would like to 
take just a few moments to discuss our company with the 
committee.
    I represent nearly 300,000 FedEx team members. As I said, I 
am honored to be here with my fellow panelists to have a 
discussion with you about how we can pass the trade agreements 
with Colombia, Panama, and South Korea but, as importantly, how 
we can work together to position our businesses, our members, 
our workers, and our communities to thrive in this century in 
the global economy.
    We all share the same priority, igniting economic growth 
and job creation so we can leave the harmful effects of the 
recession behind and move forward towards a more prosperous 
future. Trade has to play a vital role in reaching our shared 
growth and job creation goals.
    The business community welcomed President Obama's call last 
year to double U.S. exports within 5 years and the launch of 
the National Export Initiative, and we all look forward to his 
comments on trade and passing these trade agreements to enhance 
U.S. competitiveness at tonight's State of the Union.
    How do we accomplish the bold goal of doubling exports in 5 
years? Well, the markets and consumers outside our borders 
represent 73 percent of the world's purchasing power, 87 
percent of its economic growth, and 95 percent of its 
consumers. Let me repeat that, 73 percent of the world's 
purchasing power, 87 percent of its economic growth, and 95 
percent of its consumers. We have to harness these new markets, 
this growth, and these new customers to lift our economy up and 
create jobs.
    Trade and trade agreements empower businesses of all sizes 
and their workers. We in the business community must work 
together, no matter our size, to ensure our suppliers, 
customers, and business partners can benefit from growth and 
trade as well.
    Our FedEx U.S. operations and our 230,000 American team 
members support our global express delivery network. Expansion 
of global trade strengthens FedEx and enables continued growth 
of our U.S. operations and workforce. As we grow and invest 
around the world, we create jobs here in the United States. 
Without global trade, FedEx would be a shadow of our current 
operations and our domestic U.S. workforce would be 
dramatically smaller.
    But also consider this. As our global FedEx network 
expands, we purchase new planes, such as our new fleet of 
Boeing 777 freighters, new trucks, new equipment, supplies, and 
services. Our growth abroad increases our demand for goods and 
services from our suppliers and vendors here in the United 
States, which helps them grow their businesses and create jobs.
    We strongly support free trade agreements that create new 
commercial opportunities for our customers and us. At FedEx, we 
have seen the results from the free trade agreements currently 
in force. After implementation, two-way trade volumes between 
the United States and its free trade agreement partners 
increase. Demand for our services to and from those free trade 
countries increase. Our package volumes increase, and we expand 
our operations to accommodate that growth. It is really as 
simple as that.
    I joined FedEx in 1975 and started loading packages on 
small leased jets during the first years of the company when we 
served only a handful of the cities in the United States. I 
have grown with the company and worked here in the United 
States and around the world as their operations have expanded. 
I have seen firsthand how the global economy has developed, 
spending much of my career in Europe, the Middle East, and 
Asia.
    Great opportunities are out there around the world for us 
and our customers and there are great challenges, but we in the 
private and public sector must act to seize those opportunities 
and overcome those challenges. For too long, the United 
States----
    Chairman CAMP. I am afraid we are out of time. The 
remaining part of your statement can be a part of the record, 
your written statement. But thank you very much for your 
testimony.
    [The prepared statement of Mr. Ducker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman CAMP. Now, Mr. Toppeta will have 5 minutes; and, 
as with all the other witnesses, your full written statement 
will be a part of the record of this hearing. Thank you.

  STATEMENT OF WILLIAM J. TOPPETA, PRESIDENT, INTERNATIONAL, 
                            METLIFE

    Mr. TOPPETA. Thank you, Mr. Chairman.
    My company, MetLife is the premiere global life insurance 
company, serving more than 90 million customers in over 60 
countries. On behalf of MetLife, I offer today our strongest 
possible support for the FTAs pending with Colombia, Panama, 
and South Korea.
    Let me begin with our own competitive situation overseas.
    As an American company doing business in foreign countries, 
we have certain competitive handicaps which can be corrected by 
the FTAs. For us and for many in the services industries, the 
most important challenge in doing business overseas is not 
tariffs but nontariff barriers that exist in areas such as 
governmental competition, regulatory restriction, and unlevel 
playing fields.
    Trade agreements are an important vehicle to rectify those 
nontariff barriers to doing business abroad. Unlike here in the 
U.S., where our competitors are other private businesses and 
government is the impartial regulator, in some foreign markets 
we actually compete against government-owned or government-
affiliated enterprises. So the foreign government is both our 
competitor and our regulator. If I may use a baseball analogy, 
this is like having the umpire playing for the other team.
    In FTAs, foreign governments can agree to correct this 
imbalance. For example, the KORUS FTA will allow U.S. insurers 
to compete with state-owned enterprises such as the Korea Post 
and other government-affiliated providers under essentially the 
same regulatory requirements. Korea's commitments in the KORUS 
FTA to a number of reforms are intended to level the playing 
field between the government-owned Korea Post and the private 
sector. These commitments are vital to the growth of MetLife 
and other U.S. insurers in Korea.
    There is another way in which we face competitive 
disadvantages overseas. That is the case where our competitors 
from other countries have an FTA, say, with Korea and the U.S. 
does not. This is a clear and present danger in Korea. Korea 
has already negotiated an FTA with the European union which is 
on track to be implemented later this year. As you may know, we 
have major European competitors. If the Korea-EU Free Trade 
Agreement goes into effect this year and KORUS does not, we 
will be at a competitive disadvantage to European insurers. To 
use another baseball analogy, it will be as if the Europeans 
are putting nine players on the field and we can only use six 
or seven. This disparity can be avoided by passing the KORUS 
FTA promptly.
    My second point is to inform you about how growth of our 
business in foreign markets, which can be aided by the FTAs, 
creates and sustains jobs here in the U.S. The fundamental 
point here is that MetLife as a global life insurance company 
has businesses in many countries around the world, but we do 
not export products. Instead, we export competencies and 
expertise which come largely from the U.S., creating highly 
skilled, well-paying jobs right here at home. Let me give you 
an example.
    When we create a new product to offer in Korea, the product 
development and management are done largely in the U.S. The 
most highly skilled actuaries, investment professionals, risk 
managers, and others are here. So as we grow our business 
internationally we are expanding employment of people in the 
U.S.; and for each of these experts we employ in the U.S., 
there is a broad spectrum of U.S.-based support jobs behind 
them in areas such as human resources, information technology, 
and administrative assistance.
    I would also make a related point. MetLife as a global 
company has a highly diversified stream of revenues and 
earnings. One of the ways in which we are diversified is 
geographically. This year, more than 30 percent of our top-line 
revenues and about 40 percent of our bottom-line earnings will 
come from international business. This diversification is 
important because, as we know, the world's economies do not 
always move in lockstep.
    Having diversified revenues and earnings from foreign 
markets allowed MetLife to perform very well during the recent 
financial crisis and to sustain U.S.-based jobs of employees 
supporting our international business. Since the FTAs will 
enable our growth abroad, they will have a direct and positive 
impact on creating and sustaining U.S. jobs.
    In conclusion, just let me say that American companies are 
innovative, American workers are highly productive. Given a 
fair chance, we can compete and win against anybody in the 
world. It is within your power to put us on a level playing 
field internationally. By passing these FTAs, you can make it 
so we don't have to play against the umpire's team overseas and 
you can let us play nine against nine on the foreign field. If 
you give us that fair chance, if you will unleash us, we can 
revitalize this economy and put Americans back to work in 
record numbers. We are asking for your support.
    Thank you.
    [The prepared statement of Mr. Toppeta follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman CAMP. Thank you very much for your testimony.
    Mr. Biegun, you now have 5 minutes; and your written 
statement also is part of the record. Thank you.

  STATEMENT OF STEPHEN E. BIEGUN, CORPORATE OFFICER AND VICE 
  PRESIDENT OF INTERNATIONAL GOVERNMENTAL AFFAIRS, FORD MOTOR 
                            COMPANY

    Mr. BIEGUN. Thank you, Chairman Camp and Ranking Member 
Levin and Members of the Committee for the invitation to share 
Ford Motor Company's views today on Panama, Colombia, and 
Korea. Let me also say it is a real honor as a third-generation 
Ford Motor Company employee to represent my company before this 
distinguished panel today. Thank you.
    Ford Motor Company has supported every free trade agreement 
negotiated by the United States, including the three agreements 
that are being reviewed by the committee today. I look forward 
to especially discussing our views during the course of this 
hearing on the renegotiated 2010 U.S.-Korea Free Trade 
Agreement.
    Since 2007, Ford has worked diligently to reach today's 
position to say with confidence that the U.S.-Korea Free Trade 
Agreement will open what has been to date the world's most 
closed automotive market. We are now pleased to say that we 
strongly encourage the Congress to approve this agreement in 
its current form. Under it, America's automobile industry will 
have far greater opportunity to expand the export and sale of 
American-made automobiles to Korea.
    This was not always the case. In 2007, a deal was 
originally negotiated that fell far short of opening the Korean 
market to U.S. auto exports; and, in fact, it would have locked 
in a one-sided trade in automobiles, a trade that accounts for 
75 percent of the $11 billion United States trade deficit with 
Korea. This agreement, which hopefully will be before the 
committee soon, is a significant improvement over the 2007 
deal. This outcome would not have happened without the active 
support and the leadership of the chairman and the ranking 
member of this committee as well as the tireless efforts of the 
U.S. trade representative and his team. On behalf of the more 
than 150,000 men and women who work at Ford Motor Company, I 
would like to say thank you.
    Specifically, improvements have been made in key provisions 
of the free trade agreement impacting car tariffs, auto safety, 
environmental standards, taxes, transparencies, and a variety 
of other issues, which I detail in my written testimony.
    We had several strong partners in reaching this outcome, 
certainly Chrysler and General Motors but also the United Auto 
Workers; and the results speak for themselves. I cannot recall 
in recent memory another free trade agreement moving through 
the Congress with bipartisan support as well as the backing of 
industry and labor.
    And this is a big deal. Korea is an important automotive 
market, with almost 1.5 million new cars sold every year. Ford 
has operated in Korea since 1995, selling both Ford and Lincoln 
brands. Almost all the vehicles we sell here are made here in 
the United States. Despite the fact that Ford Motor Company 
today makes cars and trucks that are best in class in safety, 
fuel efficiency, and quality, in 2010 our total exports were 
limited to approximately 4,000 vehicles. We look forward under 
this new agreement to offering the Korean customer a choice of 
vehicles that has never been available to them before; and we 
are confident that, given the choice, like consumers around the 
world, they will choose the best value for the money.
    Mr. Chairman, though often overlooked, America's automobile 
industry is one of the leading exporters in the American 
economy. Over the past 5 years, automobiles and auto parts have 
constituted nearly 9 percent of our total merchandise exports. 
In 2009 alone, our company exported 270,000 American-made cars 
to markets around the world. Including auto components and 
parts, we exported a total of $9.3 billion from the United 
States.
    We likewise are major importers, sourcing from a global 
supply chain that stretches across 90 countries and exporting 
from place of assembly to point of sale nearly half of the 5.2 
million vehicles we make worldwide.
    We know that trade works. It should therefore not come as a 
surprise that, as a global company, Ford Motor Company believes 
that business is best where the trade barriers and tariffs are 
least. These conditions produce a healthy business climate 
benefiting all: customers, workers, and businesses.
    The latest economic downturn has provided ample 
illustration that manufacturing matters to American jobs, 
investment, and economic growth. While U.S. manufacturing took 
the brunt of the recession, there are now signs that it is 
leading the way to recovery. Last year, the American economy 
added manufacturing jobs for the first time in over a decade.
    Ford is proud to be at the forefront of American 
manufacturing's turnaround. We began our transformation before 
the recession. We focused on the things that just made sense, 
return to our core strength, matching capacity to demand, and 
working with our employees to ensure that Ford not only 
competes but wins globally. Ford's turnaround was its own, and 
now we will all benefit from this success. We recently 
announced that Ford will add 7,000 new American jobs over the 
next 2 years. The men and women of Ford Motor Company are 
working daily both for Ford and the Nation's recovery.
    It has been a difficult and at times contentious effort to 
get the U.S.-Korea Free Trade Agreement through. But now we 
look forward, not back, to combining this agreement with our 
own transformation to build the best vehicles in America and 
deliver them around the world, including to Korea. That is what 
free trade is, and that is what free trade agreements should be 
about.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Biegun follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman CAMP. Thank you very much. Thank you all for your 
testimony.
    At this time, I have a question for all of the panelists 
here today; and if you could just answer briefly because we are 
all on the clock here on this.
    Will the three agreements--Korea, Colombia, and Panama--if 
passed help create jobs here in the United States? And if each 
of you could answer.
    Mr. PAULSON. Yes. Thank you very much.
    If the three agreements passed, for sure it will create 
jobs in the United States. I know that, in my own factory, for 
every $150,000 of sales, we are able to hire another person to 
the factory; and we not just will be hiring production people 
but also people that will be in engineering and in the tool 
building end of the business.
    Chairman CAMP. All right. Mr. Stallman.
    Mr. STALLMAN. Using our calculation that 9,000 jobs are 
created by every billion dollars of agricultural exports, these 
three agreements would add 27,000 jobs for Americans, assuming 
$3 billion in increased exports. More importantly, passing 
these three agreements will keep us from losing jobs that will 
occur when our competitors are out there taking over our 
markets.
    Chairman CAMP. That $3 billion is in the agricultural 
sector? Because I have seen higher numbers for the total 
exports of all three agreements.
    Mr. STALLMAN. Yes, sir, Mr. Chairman. Strictly for 
agriculture.
    Chairman CAMP. Mr. Ducker.
    Mr. DUCKER. Yes, sir. As I said in my testimony, Mr. 
Chairman, we have about 300,000 employees worldwide; 230,000 of 
those are in the United States. The U.S. is by far the largest 
business; and by harnessing the global market, shifting more 
into and out of the United States, we add employees here at 
home. So the benefits of those trade agreements are clear in 
our case.
    Chairman CAMP. All right. Thank you.
    Mr. Toppeta.
    Mr. TOPPETA. Yes. I would say in our case the answer is the 
same.
    If I give you my personal experience going back 10 years 
ago when we were much smaller, had virtually no business 
outside the United States, we had only a handful of people 
doing work internationally, and now we are probably at 2,000 or 
so employees. So the answer is, over that period of time, all 
because of international growth, we have increased jobs here 
from close to 0 to 2,000; and I expect that trend would 
continue.
    Chairman CAMP. Thank you.
    Mr. Biegun.
    Mr. BIEGUN. Mr. Chairman, we do business in all three 
countries. We have a growing business in all three, and we 
export U.S.-made automobiles to all three. And to the extent 
that all three of these free trade agreements--well, the Korea 
in its renegotiated form going forward--all three would 
definitely help us expand our business, although the Korean 
market is six times larger than the Colombian market. So that 
is where the bulk of the opportunity is for us.
    Chairman CAMP. Thank you.
    A huge aspect of the trade debate is the unfair competition 
we face with China. As the ranking member pointed out in his 
opening statement, it is indisputable that China unfairly 
subsidizes its exports, fails to protect U.S. intellectual 
property, favors production by its own industries, and doesn't 
allow its currency to reflect market realities. Our agreement 
with South Korea would allow us a beachhead in Asia and provide 
a counterbalance to China there.
    We are also seeing a growing influence of China in Latin 
America. Their reach is extending even to that part of the 
world, deliberately using all of the tools they have been using 
in the past to assist their companies in those markets.
    My question for each of the panelists and I will start with 
Mr. Paulson--is how will the three pending trade agreements 
help you compete against China?
    Mr. PAULSON. Thank you.
    For years I used to think I needed to play defense when I 
was working with foreign markets, and I would look at my prices 
and I would say I couldn't compete on items, and I played 
defense and set up these walls. Well, I changed my mind, and I 
don't really like to play defense. I like to play offense.
    When I could move into the offensive role and look to sell 
to these countries instead of worrying about them with what 
their activities were here in the United States, I found that 
even in China I do not have a problem selling. They love my 
products. They clamor for these items, and the issue about 
these different countries not wanting U.S. goods is just a 
misnomer. They want our products, and they will pay our prices 
for quality items.
    Chairman CAMP. Thank you. Mr. Stallman, just briefly.
    Mr. STALLMAN. Agriculture is in a little bit different 
situation with China. China has 7 percent of the world's arable 
land, over 20 percent of the world's population. They need to 
import food. They have moved into a position of being the 
number two importer of U.S. agricultural products, and so our 
flow is pretty good. There are specific areas that have created 
problems in the past in some commodities, but, in general, we 
view this as being very positive, even establishing a beachhead 
in Asia and then how that will affect the China market.
    Chairman CAMP. Thank you.
    Mr. Ducker.
    Mr. DUCKER. Yes, sir.
    China is a large and growing part of our global enterprise. 
We do business in 220 countries and territories. We do think, 
as Bob said, it is very important to establish the beachhead 
there because many of the countries in Asia, are the largest 
trading lanes within Asia. So this beachhead is very important. 
It helps to put rules around how we trade and is a good, good 
creation for our business in China as well as the countries 
that are under consideration here.
    Chairman CAMP. Thank you.
    And Mr. Toppeta.
    Mr. TOPPETA. Well, I would just give you the example of 
Korea. I would say Korea is a huge market. It is a trillion 
dollar economy. It is a fast-growing economy. It is the eighth 
largest trading partner for the U.S. And if we don't fight for 
that market, then it is clear to me that China and Europe 
surely will. So it would seem to me that we would be at our 
best advantage to get the FTA with Korea done so that we can 
establish our position firmly there.
    Chairman CAMP. Thank you.
    And Mr. Biegun.
    Mr. BIEGUN. Mr. Chairman, I certainly understand the 
geopolitical argument that you are getting at in relation to 
China. From a narrow Ford Motor Company perspective, I would 
say the most important achievement in the Korea Free Trade 
Agreement was the United States standing firm on principle. It 
sends a message to the Asian economies across the board that 
you have to open your markets if you want free trade with us. I 
think that is beneficial for China and Korea and Japan and many 
other countries.
    Chairman CAMP. Thank you. Thank you all very much.
    Mr. Levin is recognized for 5 minutes.
    Mr. LEVIN. Thank you.
    We very much welcome your testimony. I really don't think 
there is any disagreement about the globalization of the 
economy and the need for us to participate and to compete. The 
issue is under what standards and whether there are standards 
that relate to making sure that the benefits of expanded trade 
are expanded in terms of who benefits in this country in 
creating jobs and in other countries, for example, helping to 
develop middle classes there who can buy our goods.
    Let me, Mr. Toppeta, ask you a bit of an unfair question. 
You are sitting next to Mr. Biegun and you very graphically 
spelled out about the opening of the market for your services, 
the post owned by the government. If the free trade agreement 
with Korea had not opened up the market for your services, as 
Mr. Biegun has said it did not for automotive, would you be 
supporting the free trade agreement with Korea?
    Mr. TOPPETA. Well, the answer is, yes, but maybe not as 
vigorously as I am. And I will give you the example.
    Mr. LEVIN. Even if Korea continued to shut out your 
services?
    Mr. TOPPETA. Well, I think you have to look at this in two 
ways. I think you have to look at this, first of all, from a 
broader national perspective, right? The question is helping 
the U.S. to compete better. That is where I think all of us 
want to start our analysis. And so if we had an agreement in 
which a lot of our industry, our agriculture would benefit and 
my company wouldn't, I would say, sure, I still support a free 
trade agreement.
    Mr. LEVIN. How about not your company but the services--
your industry?
    Mr. TOPPETA. Yeah, I think the same logic applies. I think 
we want to get the market open. And if we can pry the market 
open for one sector or two sectors or three sectors, that would 
be a start. So my answer is I would still support and my 
company would still support--and I will give you the example of 
Colombia and Panama.
    Mr. LEVIN. Let me ask you about Korea. What if your 
services represented two-thirds of the deficit in trade with 
Korea? Automotive is two-thirds of the deficit and so, in terms 
of a closed market, Mr. Biegun has indicated it is the most 
closed market in the world. So even if your industry 
represented two-thirds of the deficit with Korea, you will 
still say okay?
    Mr. TOPPETA. Well, I think, sir, it depends on what the 
rest of the agreement does and what it does for the U.S. 
economy. You can't look at everything just from your own narrow 
perspective. And the point that I was trying to make to you is 
that, with respect to Colombia and Panama, we weren't even 
doing business in Colombia and Panama until November of last 
year; And we supported the free trade agreements in principle 
because we thought they were a good idea for our economy.
    Mr. LEVIN. You say the word ``narrow''. You talked about 
nontariff barriers as the most important barrier.
    Mr. TOPPETA. For my company and my industry.
    Mr. LEVIN. Exactly. And the nontariff barriers in Korea 
represented two-thirds of the deficit. We have a major deficit 
with Korea. All right. Maybe we will leave it at that.
    Mr. Paulson, I just want to say I am glad Mr. Camp asked 
you the question about China. And while your company may be 
able to benefit from their rules, a lot of companies don't see 
it the same way. In many cases, the Chinese say we will let you 
compete only if you transfer your technology to a partner. In 
those cases, I think many, many companies in this country and 
its workers say that is not trade the way it should be. So 
talking about having a broader perspective, I think as we look 
at our relationship with China--and I favor engaging in 
expanding trade--we need to look at the rules of engagement.
    My time is up.
    Chairman CAMP. Your time has expired. But if you would just 
like to make a brief comment.
    Mr. PAULSON. Thank you very much.
    It is interesting what you bring up with China. China asked 
us to bring over the rules and regulations of safety businesses 
for electrical safety workers to China so they could view those 
rules and see how they could improve their own circumstances. 
They didn't try and copy our product. What they did was trying 
to learn from us how to protect the workers who are the highly 
trained electricians. And in this way not only did we export 
our products but we exported the knowledge of the National Fire 
Protection Association codes for electrical workers.
    Chairman CAMP. Thank you.
    Mr. Herger is recognized for 5 minutes.
    Mr. HERGER. Thank you.
    Mr. Chairman, this is indeed a critical hearing that has 
been long overdue. I represent a district with very high 
unemployment. I know that is characteristic throughout our 
Nation. So I would like to thank you for making this a priority 
and for giving us the opportunity to explore how these pending 
FTAs will provide an immediate boost to our economy and create 
much-needed American jobs.
    Mr. Stallman, as a member who represents one of the richest 
agricultural districts in the Nation, one that stands to gain 
significantly from the tariff reductions included in these 
agreements for products like almonds, walnuts, and dried plums, 
I am interested in exploring how increased agriculture export 
will benefit our local communities and the broader economy.
    In your testimony, in answer to several questions, you 
alluded to a comment in your testimony that the Agriculture 
Department estimates that every billion dollars in agricultural 
exports supports 9,000 U.S. jobs. The Farm Bureau estimates 
that U.S. agriculture exports will increase by almost $3 
billion, which would mean 27,000 jobs. Would you provide more 
detail about how that supply chain works and how additional 
agricultural exports benefit the broader U.S. economy? And 
please also provide some insight as to how these exports might 
be particularly valuable or helpful for small businesses that 
support our agricultural sector or are part of the supply 
chain.
    Mr. STALLMAN. Certainly, I will try to do that. The entire 
chain, the food chain, and--starts at the farm gate. And a lot 
of times people think about agricultural exports only in the 
context of what is being produced when it leaves the farm gate. 
Well, the reality is we have transportation workers, 
processors, packers, longshoremen at the port, sales and 
marketing employees, administrative and clerical staff for the 
companies involved. That whole chain that is necessary to move 
that product from the farm gate to our customer in other 
countries creates jobs, and it all starts at the local level.
    The processing facilities many times, particularly for some 
of the products that you talked about, are placed at the local 
level. You have the transportation workers that ship from the 
local level that probably live there, and they truck or load up 
the products to be sent on further up the chain.
    So this has broad benefits and a broad effect across all of 
our economy, and those jobs are spread across that entire 
supply chain.
    Mr. HERGER. Thank you.
    You also discussed in your testimony how exports of Chilean 
wine into Korea have grown exponentially and clearly have 
supplanted market share from U.S. wine exporters. You 
attributed the decline in U.S. exports to the 15 percent duty 
that was eliminated under the Korea-Chile trade agreement, but 
remains in place for U.S. wine exporters. Do you have any other 
examples of how we have lost market share while others gained 
by having an agreement in place?
    Mr. STALLMAN. Well, we have examples scattered--well, let 
me start with the Korea agreement. And this is what I fear will 
happen is that when the EU implements the agreement effective 
in the summer of this year, their schedule applies to reducing 
94 percent of the tariffs over a 5-year period, while our 
agreement with Korea, if we get that implemented, we reduce the 
same amount of tariffs over a 3-year period. So that gives us a 
jump, and just like the Chilean wine agreement, any time you 
have a tariff that is reduced for one country to the detriment 
of another country that is putting that product in there, your 
product is at risk. You are going to lose market share. It is 
happening in Colombia right now with corn and wheat and 
soybeans.
    That will be the continued example that we will see if we 
don't get these agreements in place to reduce the tariffs for 
our products going into those countries.
    Mr. HERGER. So what you are saying, as I understand it, is 
that not only if we are not out signing and implementing trade 
agreements with other countries, we are not just standing 
still; we are actually losing market share and losing jobs by 
not participating in these agreements.
    Mr. STALLMAN. Absolutely. And in the past that has not been 
a problem. We have always looked at moving forward with our 
trade agreements. Other countries have caught on to this, and 
they are creating their own free trade agreements with these 
countries and getting into the markets that we have 
traditionally had, and for us to sit back and do nothing puts 
us at a continuing disadvantage.
    Mr. HERGER. Thank you.
    Chairman CAMP. The gentleman's time has expired.
    Mr. Johnson is recognized for 5 minutes.
    Mr. JOHNSON. Thank you, Mr. Chairman.
    Mr. Ducker, in the 3 years before implementation of the 
U.S.-Australia agreement, exports from Texas to Australia 
averaged $800 million a year. And in the 3 years after 
implementation, they went to $1.3 billion a year, or 66 
percent.
    And you know--and the U.S.-Chile thing was the same thing. 
The agreement to--exports from Texas to Chile were declining, 
and since implementation, the exports have increased by 107 
percent.
    I think the benefits of previous trade agreements are 
really pretty obvious. And you are all over the world, so can 
you see changes in the way people conduct business in these 
countries as compared to exporting from the United States? Are 
you now seeing exports coming from the rest of the world into 
these countries that we don't have agreements with?
    Mr. DUCKER. Yes, sir, Congressman Johnson. Having lived 
outside the United States for a long time, at least half of my 
career, I can unequivocally tell you that not only are other 
nations taking advantage of the burgeoning global trade, but, 
as my colleagues have mentioned here, moving rapidly to gain 
access to these other markets through their trade agreements. 
And there is no doubt that the numbers that you just mentioned 
there, as well as some of the numbers that are in my testimony 
regarding NAFTA, absolutely are indisputable that the world is 
moving on and, in fact, taking a page out of our playbook about 
these free trade agreements.
    Mr. JOHNSON. You know, we have got to stop sitting on our 
hands, don't we?
    Mr. DUCKER. We have to move, sir. It is an imperative.
    Mr. JOHNSON. You know, 26 percent of all manufacturing jobs 
in Texas depend on exports. That is more than one in every four 
workers. Between 2005 and 2008, the number of manufacturing 
jobs in Texas dependent on exports increased from around 
161,000 to 225,000, an increase of 38 percent.
    Mr. Paulson, you rightly note in your testimony that 
standing still on trade agreements is more accurately described 
as falling behind. I couldn't agree more. How has U.S. 
manufacturing in general been affected by the delay in 
implementing these three trade agreements?
    Mr. PAULSON. It is not just an effect with these three 
countries; it is a vision to the whole world that the United 
States turned off the sign that says ``We are open for 
business.'' We want to turn that sign back on, because if we 
are stalling out in these agreements, what are we going to 
stall out next?
    Mr. JOHNSON. Thank you very much. Thank you, Mr. Chairman.
    Chairman CAMP. Thank you.
    Mr. Rangel is recognized for 5 minutes.
    Mr. RANGEL. Thank you so much, Mr. Chairman, and let me 
thank all of you for sharing your views with us. While it is 
true that there are a few Members that would accept any 
agreement that we might come up with, or there are others that 
no matter how good the agreement is, that they would be opposed 
to it. But I think the vast majority of Members, Democrats and 
Republicans, recognize that we have an excellent opportunity to 
create jobs, to create competition, to have economic growth, 
and that I think all of you would agree that having a 
competitive educational system is important. So I do hope that 
all of you would send to me what efforts you are making in 
order to improve the quality of education of all Americans so 
that indeed we can compete with international workers.
    And I think you have to agree, too, that having an educated 
and healthy workforce is helpful. And I would like to get your 
views as to what role, if any, you think the United States 
Government should play in making certain that all of our 
workers have access to the best health care that is possible in 
order to be competitive. So I hope that you would share those 
things with me. I don't want to take the committee's time, but 
I do hope that I do receive some very, very positive things 
that you are doing.
    Let me ask this as it relates to Korea. There are so many 
reasons why we should support the free trade agreement with 
Korea. Not only are they are our friends and, as people have 
pointed out, a largest trading program, but they represent the 
center of democracy in this part of the world. It is a part, I 
think, about national security. We have had troops there since 
I first went in 1950 to Korea, and they are still there after 
60 years, and so, therefore, we do have a vested interest in 
Korea.
    I want to know whether anyone sitting at this table would 
have supported an agreement with Korea that actually singled 
out our automobile industry for exclusion, where they would 
accept 6,000 cars and send over half a million cars. It is not 
just automobiles in Detroit, it is the heart of American 
manufacturing. Without the changes that I understand have been 
made, would any of you have supported the Korea FTA? So I----
    Mr. PAULSON. Excuse me. I would liked to answer you because 
you did ask us a question.
    Mr. RANGEL. I am waiting for an answer, Mr. Paulson.
    Mr. PAULSON. Certainly.
    The Korean FTA has more in it than simply automotives. The 
NAM, National Association of Manufacturers, has consistently 
said that an improvement to the Korean FTA in respect to the 
automotive industry was needed, and as you have seen, the USTR 
Kirk has done an excellent job of achieving this.
    Mr. RANGEL. Mr. Paulson, that is a wonderful answer, and I 
don't think anyone can challenge it, but my question to you is 
that if these corrections had not been made in terms of the 
barriers that Korea has put up to American-manufactured cars, 
would you support that agreement, not the one that I am being 
supportive of today?
    Mr. PAULSON. I have to say that I was not particularly 
privy to that.
    Mr. RANGEL. Okay. You don't know. Okay.
    Let me ask this, then, as it relates to Panama, because we 
worked on all of these things, and so I am trying to shatter 
the myth that one party is for trade, and the other party is 
against trade. I think we have a great agreement with our 
friends in Panama. But I ask the question would any of you 
support the Panamanian FTA if you knew that they refused to 
sign an agreement with us as it relates to them providing a tax 
haven for billions of dollars from American taxpayers being 
lost? Would you support the Panamanian agreement knowing this 
and knowing that our government objected to their failure to 
sign such a tax exchange--information exchange agreement? Would 
you support that agreement knowing that it had this fault, 
which I understand now, Mr. Paulson, has been corrected?
    Mr. STALLMAN. Congressman Rangel, we would have. We view 
trade agreements through the lens of--really two lenses: one, 
what it does for U.S. agriculture; but then more importantly 
what it does for the economies of the respective countries. 
Because it is a very simple calculation. As economic growth 
occurs, and as standards of living increase, that increases 
opportunities to provide for food----
    Mr. RANGEL. I understand that.
    Chairman CAMP. The gentleman's time has expired, and at 
this time I would recognize Mr. Brady for 5 minutes.
    Mr. BRADY. First, Mr. Chairman, thank you for the 
timeliness of this hearing. Trade has been locked away in a 
closet for too long here in Congress. It is appropriate on the 
day the President will address the Nation on the State of the 
Union to focus on jobs and competitiveness that we are hearing 
from leaders in manufacturing, in agriculture, in services, in 
automobiles, real job creators who are telling us that trade 
and these pending trade agreements are the answer, are one key 
component, to creating new U.S. jobs and competitiveness, and 
making the point, too, that clearly America is falling behind 
our competitors, is costing us U.S. jobs, and, I think, 
undermining the credibility as we go forward on the global 
stage to level the playing field.
    I credit the President and USTR for making a very solid 
agreement even better and clearing the way for passage of that 
agreement. I think it is important to make distinction between 
improvement for the sake of passage versus improvement as an 
excuse for further delays, which is what I see with the Panama 
and Colombia agreements.
    Clearly Panama, in the 4 years since the agreement has been 
signed, has literally met every request that this Congress and 
White House, frankly, could dream of, not only incorporating 
the bipartisan May 10th agreement, but also passing tax and 
labor laws to meet every request from the U.S. Government. 
Panama is ready to go. We have the votes to pass it tomorrow. 
It is time to open that market. No more excuses.
    Colombia is the same. Colombia continues to make dramatic 
improvements in human rights, labor rights, in protecting labor 
leaders from violence, and protecting and creating rule of law 
in their country. In fact, the independent organizations 
looking at Colombia, the International Labor Organization, 
recognizes the improvements Colombia has made by removing 
Colombia from its labor watch list. The U.N. High Commission 
for Human Rights has cited Colombia's improvements. The 
European Union's latest report on human rights acknowledged the 
evident reduction of cases of violence. And we have bipartisan 
support from people like Senator Max Baucus, chairman of the 
Senate Finance Committee.
    Colombia is making remarkable progress, and I think the new 
government is not a new opportunity for progress, but the 
continuation of the same opportunity for progress and, unless 
we move, the same opportunities for harm for our U.S. workers.
    So I guess my question today with competitiveness as the 
issue, from a jobs perspective, from a competitiveness 
perspective, is it time, in your opinion, to move these three 
pending agreements, and does the failure to move undermine our 
competitiveness as a country? Mr. Paulson?
    Mr. PAULSON. Thank you.
    Yes, if we don't move, as I said previously, it shows the 
world that we are not open for business in this country. But if 
we do move, and we do it quickly and appropriately, we will see 
that there will be more and more business that will come here 
to the United States not just from these trade agreements, but 
from our other trading partners.
    Thank you.
    Mr. STALLMAN. Absolutely we need to move forward. If we 
don't, we will be at a competitive disadvantage.
    Let me make one point about Colombia because I don't think 
it has been talked about. People want to level the trade 
playing field. Our Members want to do that. You hear that 
continually. This Congress has passed the Andean Trade 
Preferences Act and renewed it. That gives them access to our 
markets. By them reducing tariffs when they already have access 
to our markets, we are leveling the playing field, and that is 
what the Colombia agreement is about for American agriculture.
    Mr. BRADY. Two-way trade, not merely one-way trade.
    Mr. STALLMAN. Absolutely.
    Mr. BRADY. Mr. Ducker.
    Mr. DUCKER. Yes, sir, Mr. Congressman, it is time to move. 
We fly airplanes into all three of these countries. I have been 
to Colombia several different times and note, as you do, the 
improvements that have been made in that environment. And as my 
colleague states, some of the tariffs that exist on American 
exporters today into Colombia in particular would be eliminated 
as a result of this agreement.
    Others are moving rapidly to create their own agreements 
with these countries, and I do believe it is urgent that we 
move and pass these free trade agreements to the benefit of our 
workers here.
    Mr. BRADY. Mr. Toppeta.
    Mr. TOPPETA. I agree. As I said in my testimony, we support 
all three.
    Mr. BRADY. Thank you.
    Mr. Biegun.
    Mr. BIEGUN. Mr. Brady, we support all three agreements, and 
we are confident that the committee will find a way to move 
forward to get all three through.
    Mr. BRADY. Thank you, Mr. Chairman.
    Chairman CAMP. The gentleman's time has expired.
    Mr. Stark is recognized for 5 minutes.
    Mr. STARK. Thank you, Mr. Chairman. And I want to thank the 
panel for enlightening us today.
    I would like to, as the chairman has, just go down the list 
with you and say while I am encouraged by the idea of free 
trade agreements, what are the pitfalls? What do we want to 
watch out for? It can't be all 100 percent in our favor. Ford 
Motor has an issue. I am sure that small manufacturers do. What 
need we--you have all outlined for us the benefits. What, if 
any, very quickly, are the dangers we have to watch out for?
    Mr. PAULSON. Well, I think you just properly described the 
free market, because there is always this situation that there 
is a push-me, pull-you circumstance that occurs, and the cream 
will rise to the top, and that will be us.
    Mr. STARK. Ag?
    Mr. STALLMAN. You always have to watch out for the details 
of access basically, and I will give you an example with Korea. 
Rice as a commodity.
    Mr. STARK. That is important to California.
    Mr. STALLMAN. That is why I mentioned it. That was taken 
off the table during negotiations. The Koreans are extremely 
sensitive about that. The reality is that is not going to be a 
huge market for us. We have much better markets elsewhere. But 
when you look at the package--and that is what we do as a 
general farm organization--when you look at the package, it is 
positive for U.S. agriculture.
    Mr. STARK. Beef?
    Mr. STALLMAN. The beef issue, we are getting beef back into 
that market. We are still encouraging the Koreans to adhere to 
international standards. They have continually said that when 
their consumer confidence increases, they will. But beef is 
flowing back into that market at a rapid rate from the U.S.
    Mr. DUCKER. Yes, sir, Congressman, I think one of the 
things that you have to be careful of in the trade agreements 
is a balance, and striking the proper balance. That is why it 
is a negotiation. Not everybody is going to win on every point, 
but as long as the broader perspective is maintained and we get 
good balance in the free trade agreements, then I think the 
country is best served.
    Mr. STARK. You are suggesting that we win in one free trade 
agreement but maybe give up in the other, and the balance ends 
up----
    Mr. DUCKER. I am suggesting that in all of those free trade 
agreements there is a balance in a number of different 
technical points. So in one agreement there may be agricultural 
provisions that need assistance; in others there may be service 
agreements. But I am saying the balance on both sides.
    Mr. STARK. Could you give me an example of a State law or 
regulation that hurts the life insurance business? Specific?
    Mr. TOPPETA. Sorry, Congressman? A State law in the U.S.?
    Mr. STARK. No, no, in Korea or wherever.
    Mr. TOPPETA. That hurts? Oh, yeah. I can give you lots of 
examples of that. I think that in the current situation in 
Korea, one of the things--we take for granted here in the U.S. 
that you know what the rules are. You know what the law says. 
You know what the regulations are.
    In Korea, we are frequently subject to what I would call 
``desk drawer'' rules, which means the regulator has got 
something in his desk drawer, you don't know what it is, and at 
the appropriate moment after you have done something, he pulls 
it out and says, oh, by the way, this is the rule.
    Notice and comment provisions, due process provisions are 
extremely important. They are actually in this agreement, so I 
think that is a plus for us. But right now there are a number 
of these things which regulatory transparency is a big issue 
for us in Korea.
    The other thing I would say, you asked a question about 
things to watch out for. I think the big thing to watch out for 
in all agreements are the follow-throughs. I agree with Mike 
that, you know, in any agreement you are going give something, 
and you are going to get something, but once you get 
commitments, you have to make sure that there is a follow-
through. Again, in the KORUS agreement we have established an 
insurance working group between the two countries to work out 
these differences.
    Mr. STARK. Can their life insurance companies sell in our 
country?
    Mr. TOPPETA. Yes, they can under the agreement.
    Mr. STARK. Thank you.
    Mr. BIEGUN. Mr. Stark, in the automobile sector, tariffs 
generally--except in exceptional cases, tariffs are not the 
barrier to imports. It is the nontariff barriers, The 
regulatory differences often created specifically to impede 
imports. So you have to build in the market to that standard. 
So in the FTAs that is the fine print that we really have to 
spend a lot of time looking over.
    Mr. STARK. You will have to explain to me later what a 
third of a car is.
    Thank you, Mr. Chairman.
    Chairman CAMP. The gentleman's time has expired.
    Mr. Nunes is recognized for 5 minutes.
    Mr. NUNES. Thank you, Mr. Chairman.
    Mr. Chairman, I do want to remind the committee that it has 
been 4 years these trade agreements have been pending, more or 
less. We had President Bush, who was willing to sign free trade 
agreements for the first 2 years. The last 2 years, we had 
President Obama and the Democratic Congress, who for the most 
part has said he supports moving these agreements; however, we 
have not seen the agreements move. And despite the sluggishness 
in our economy, despite all of these fine gentlemen here saying 
they would benefit from these agreements, we still have yet to 
see any real movement.
    This President's National Export Initiative--and I know we 
politicians love to come up with these wonderful names--in 
2009, we had $1 trillion in total trade in this country. This 
initiative set out by the President wants to double U.S. 
exports. And I guess my question to the panel--and this is open 
to anyone who wants to answer it--is this a reasonable 
expectation to be able to double our exports in the near term, 
to go from $1 trillion to $2 trillion? And how far down the 
line would these three agreements get us? I guess we will go to 
Mr. Paulson first.
    Mr. PAULSON. Thank you.
    I really do feel that the NEI is an achievable goal for our 
country, and it also puts us into the position that we are 
striving towards that goal instead of just letting things 
happen as they may occur over time.
    Mr. NUNES. But, Mr. Paulson, can we get there by not 
passing trade agreements?
    Mr. PAULSON. We must pass the trade agreements, and work 
towards the trans-Pacific agreement, and work towards other 
trade agreements, not just these three. We have to go beyond 
that. You can see how other countries, like the cooperation of 
the EU, is working to establish trade agreements. We have to do 
the same type of work.
    Mr. NUNES. Mr. Stallman.
    Mr. STALLMAN. Well, I don't think we can do it without 
passing agreements and negotiating new agreements, reducing 
tariff barriers and nontariff barriers. But I am encouraged. I 
think we can accomplish the goal. Agriculture already has very 
significant exports. But if you look at the numbers between 
2010 and 2011, we are projecting basically a 20 percent 
increase in agricultural exports, and as world demand 
increases, I think that number will continue to go up. So if we 
keep working at it, keep enforcing current trade agreements, I 
think we can do it.
    Mr. DUCKER. Congressman Nunes, the answer is unequivocally 
yes, that we can achieve that initiative. If you look at the 5 
years between 2003 and 2008, we increased our exports by 79 
percent. The global economy is expanding. People want to do 
business with the U.S. And I would also point out that during 
that 5-year period, that we implemented free trade agreements 
with 10 countries, and we also saw earlier agreements like 
NAFTA attain full implementation.
    So I think the lesson is we can do it, yes. We cannot do it 
without free trade agreements and an opening up of our trade 
platform.
    Mr. NUNES. Mr. Toppeta.
    Mr. TOPPETA. Yes, I believe we can do it with the FTAs. I 
think it is a matter of record that the first letter sent from 
the President's Export Council to the President himself was in 
support of the three FTAs. So I think the President's Export 
Council believes that we need to get the free trade agreements 
in order to do this.
    The other point I would make is that I think you can't 
really do it without services. And the reason I would emphasize 
that is services are 75 percent of the U.S. GDP, and they are 
40 percent of our exports. And I think that tells a big story. 
There is a huge opportunity to increase our exports of 
services.
    Mr. NUNES. Mr. Biegun.
    Mr. BIEGUN. Yes, sir, I agree with what the other witnesses 
have said, and I would add the emphasis of quality agreements. 
So the renegotiated Korea Free Trade Agreement does offer us 
this opportunity, in our estimation. But it is a total effort. 
It is also enforcement. It is competitiveness of the economy. 
And, frankly, the lion's share of the responsibility is ours, 
as leaders in our companies, to be able to build the highest 
quality, the most desirable products and get out there in the 
world and sell them. And that is our job, and we are willing to 
take that on.
    Mr. NUNES. Mr. Stallman, I am going to submit a question 
about nontariff barriers to trade specifically dealing with 
agriculture. As you know, some agricultural products do very 
well, especially when those countries need those products like 
corn and wheat and other products. And then when it comes to 
certain types of fruits and vegetables, they tend to put up 
nontariff barriers to trade. So I will address that in writing.
    Chairman CAMP. Mr. Tiberi is recognized.
    Mr. TIBERI. Thank you, Mr. Chairman.
    I thank you all for being here. I come from Ohio. We have 
lost 400,000 jobs over the last 4 years in Ohio, many in 
manufacturing, not all manufacturing.
    But in your testimony, Mr. Paulson, you express a number of 
different things, and one was frustration with this body, and 
one was talking about the mythology of trade. I do want to 
remind you that some of us up here have supported free trade. 
Some of us have supported more trade and are just as 
frustrated, but from a different perspective, as well. Let me 
give that to all of you.
    As part of the President's Export Council, as was just 
mentioned--Mr. Reichert and I serve on that--a year ago the 
President talked about doubling exports in the next 5 years. 
This is the same President who, as a candidate in Ohio, less 
than a year earlier campaigned in Ohio about repealing NAFTA. 
Now, in Ohio, NAFTA means also trade with Canada, which has 
created a whole lot of jobs for Ohioans. Now, that is a big 
change, from repealing NAFTA to doubling exports, our largest 
trading partner being Canada in Ohio, in the next 5 years.
    In the fall of 2010, after the President, before the export 
council, talked about doubling exports, we saw a record number 
of advertising by a lot of different people who were antitrade, 
including the Democrat Congressional Committee, Democratic 
Governors Association, labor unions, millions and millions of 
dollars. I had conversations with your association in Ohio, 
your association in Ohio, the Chamber in Ohio, a number of 
different folks who say trade is good, and not one, not one, 
zero associations, zero employers, did anything to counter the 
millions of dollars in negative advertising on trade.
    And this has been building over years, and 2010 saw the 
record. What I would say to all of them is if this is so good, 
why aren't you countering to the American people, to the 
Ohioans in this case, why trade is good? When you open a new 
plant and say to me it is because of exports, why aren't you 
calling the local TV stations then and saying these 100 jobs 
are because of the trade agreement with CAFTA; these 25 
additional jobs are because of what we are doing because of 
NAFTA or whatever else it is?
    There has never been an answer, yes, we have done that; 
yes, we are educating the public. So my question for you, Mr. 
Paulson, and for the entire panel is, number one, why are your 
associations--I understand you as public companies may have 
other things to do, but you are a board member of NAM--why 
aren't you more engaged in communicating to the public the 
benefits of trade? It is great that you are here today, but if 
this is so good, why are all of these associations not doing 
what the protectionist side does in saying this is good for the 
American economy, this is good for the American worker, this 
creates jobs? Why aren't you doing that?
    And when you expand--because you all said if these three 
trade agreements pass, we will have more jobs in America--are 
you going to put out a press release saying that these jobs are 
directly responsible to this trade agreement?
    And number two, are you communicating with your employees 
that trade is good?
    I would like to hear from all of the gentlemen.
    Mr. PAULSON. I will try to be quick. First of all, if you 
go onto export.gov Web site, you will see that I am on it 
promoting trade. On the U.S. Chamber Web site, Paulson 
Manufacturing is listed as Faces of Trade for California. And 
on NAM, we have been doing one heck of a job of trying to 
communicate the advantages of trade.
    Mr. TIBERI. Zero TV ads, sir. Nobody in downtown Columbus 
is seeing it.
    Mr. PAULSON. In Ohio, having just been there visiting my 
customers, I went into one of my customers that works with me 
over there. I sell to him my products, and he says to me 13 to 
30 percent of the products I ship to him he reexports with 
value-added products, sewn goods in that particular case. And 
that fellow needs a new factory because he has no room in his 
factory anymore because he has got so many people.
    Mr. STALLMAN. We don't have the resources to do national TV 
advertising campaigns, but we are very active in editorials, 
press conferences, news releases, and not only at the national 
level. That spreads down to our State and local levels. I 
personally try to get editorials in major newspapers around the 
country. So we have been very active. We have a complete 
educational campaign called Trade Matters, which is once again 
spread out around the country through our grass-roots network.
    I think we are fully engaged. And I don't know what to say 
about TV advertising given today's media and communications 
systems as they exist. I am not sure that national TV 
advertising necessarily is the sole answer to this educational 
issue.
    Chairman CAMP. The time has expired, but if the remaining 
three would just give a quick answer, we will move on.
    Mr. DUCKER. Yes, sir, I will be very quick.
    We are committed to educating our workers and our 
customers. Our Web site blogs extol the virtues of global 
trade. Our relationship with the Commerce Department that has 
been ongoing for many years, helps small and medium enterprises 
to find new export markets. And our Faces of Trade program, 
which was just mentioned, with the Chamber. So there are a 
number of activities there. And even in our global advertising, 
it takes a particularly global tone about trade and the 
benefits of that to our viewers. But we don't do major campaign 
ads about trade.
    Chairman CAMP. Mr. Toppeta.
    Mr. TOPPETA. I would second what Mike has just said in 
terms of what we have done. We have done internal communication 
with our own employees.
    But to your point, I certainly would concede that we could 
do a better job of communicating with the public on these kinds 
of issues.
    Mr. BIEGUN. Congressman, we love trade. We sell trade. We 
benefit from trade. When we launched our 2011 Ford Explorer, 
the 2010 truck of the year, the central message was this 
vehicle is going to be exported to 90 markets around the world. 
It created 1,200 new jobs in a Chicago assembly plant, 600 
supplier jobs in Indiana, Ohio and Michigan. And it is an 
exciting opportunity for us, and as we see the successes from 
this renegotiated Korea Free Trade Agreement, we are looking 
forward to sharing those not only with the committee and the 
Congress, but also with our partners in the UAW to show that 
quality trade agreements can work for America.
    Chairman CAMP. Mr. McDermott is recognized.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    I have sat on this committee since 1991, beginning with 
NAFTA and the World Trade Organization and China accession. I 
have listened to panels like there over and over again, and I 
have heard promises, and we saw side letters on NAFTA and other 
things.
    I want to ask a simple question of all five of you. Is 
there any problem you have with taking the time to negotiate 
labor and environmental provisions in these trade agreements? 
Is that something that you think was a useful thing to do?
    Mr. PAULSON. Thank you for the question. The NAM's point of 
view is that social portions of the trade agreements should not 
be part of the trade agreements, but should focus more on the 
trade issues that are associated. But if I may please add in, 
don't forget that our influences of working with these 
countries on a business-to-business value or business-to-
business circumstance will have a huge change within these 
countries over a period of time, because while you are our 
Representatives, when we go into the field, we are the 
representatives of the United States.
    Mr. STALLMAN. We have much the same view, that trade 
agreements need to be focused on economics because of the 
benefits that that brings and also the increased standard of 
living. The increased standard of living, you reduce political 
strife and improve labor conditions. But we have accepted and 
probably think it is a good idea that in agreements that 
countries should state that they will adhere to international 
standards and international conventions, which is the level at 
which we think it is appropriate for labor and environmental 
agreements to be included.
    Mr. DUCKER. Very similarly, as I said a little bit earlier, 
there should be balance in the trade agreements. If there is 
time that needs to be taken to balance some of those 
agreements, yes. But the bulk of the agreements should be on 
the economic benefits of free trade on both sides. And so we 
have had, as I think one of the Members pointed out, a 4-year 
hiatus in terms of moving some of these agreements forward.
    Mr. TOPPETA. I would echo what my colleagues have said. I 
think again Mike is right. It is a question of balance. You do 
have to address concerns about worker protection and 
environment. The question for us would be how long does that 
take to accomplish, and what is the balancing act in terms of 
what may be lost in other areas during that process?
    Mr. BIEGUN. We, too, support as my colleagues here on the 
panel do, I want to single out the Congress for its ability to 
achieve an agreement just a few years ago, a bipartisan 
agreement with the administration and the Congress, to pursue 
this exact angle. But I should also say that it is not by 
virtue of agreements alone, but as a global company and for 
reputational reasons, we also strive to provide those labor 
protections and environmental standards on an equal basis 
worldwide regardless of whether or not they were required in 
the free trade agreement.
    Mr. MCDERMOTT. It strikes me that none of you said we 
should have just taken the Bush ``slam, bam, thank you, Ma'am'' 
agreements and pass them. You said you thought it was useful 
that we waited and worked out some of these problems. Is that a 
fair characterization? You all would have passed the Bush ones 
as they came out of the White House without any consultation 
with anybody in the Congress and passed them immediately? That 
is basically what you would say, right?
    Mr. PAULSON. I wouldn't want you to put words in my mouth, 
but I would say that the agreements that were worked out with 
the previous administration were certainly striving towards a 
goal that would then come to this panel for review.
    Mr. STALLMAN. We are on record as supporting those 
agreements as passed, and we were involved in the negotiations 
of those, working with our trade representative's office. And 
when they were completed, and we did our analysis, we supported 
them.
    Mr. DUCKER. As did FedEx support those agreements in the 
past. And I think there is a certain question of timing in 
this. Many of the--it is 4 years hence now, and countries are 
roaring ahead that are not the United States with free trade 
agreements around the rest of the world.
    Mr. MCDERMOTT. I am going to interrupt because my time is 
just about up. It strikes me that some people think that these 
agreements for labor and environment on these are the only ones 
they will ever be on, and that in the future they won't be 
considered. But I don't hear anybody here saying that this is 
of legitimate concern to have about every trade agreement, no 
matter which ones we make in the future.
    Thank you, Mr. Chairman.
    Chairman CAMP. Thank you.
    Mr. Davis is recognized.
    Mr. DAVIS. Thank you, Mr. Chairman. I want to briefly echo 
a comment Mr. Tiberi made regarding the communication at the 
grass-roots level. I would have to say personally, also living 
in the Ohio Valley, the business community in general, and NAM 
specifically, were absent from the critical political 
discussions.
    The reason I bring that up is we get into this constant 
battle--in fact, I was told once by a senior NAM staffer that 
NAM is not a political organization, to which I responded, how 
do you want to get your policy done?
    That brings me to the crux of this. We have a much bigger 
stake in these free trade agreements than simply doing 
business, than simply creating jobs. There is a huge national 
security and international security component to this, 
particularly with the Latin American agreements with Colombia 
and with Panama. When I think of Hugo Chavez aiding and 
abetting terrorist activity in his own country, dealing with 
direct threats to Colombia, as well as trying to destabilize 
the Latin American republics in Central America; Evo Morales in 
Bolivia; Rafael Correa in Ecuador, among others, dominate this 
political landscape.
    These trade agreements largely keep us out. And the reason 
that I bring up the issue of communication, not preaching to 
the choir, Web site to employees who obviously know that their 
goods are going overseas doesn't tell the person one block 
away. And I see this in my manufacturing-centric district all 
the time.
    Here is the real question: I was flabbergasted by the irony 
a couple of years ago when labor leaders from Colombia came 
here to meet with their brethren, labor leaders in the United 
States, as well as with the then-majority leadership in the 
House, pleading for the signature on the Colombia Free Trade 
Agreement. And I guess the question that concerns me here is 
they were turned down by the people that said they were 
fighting for their interests, and it became a matter of raw 
politics where in many ways I think we squandered a lot of 
opportunity.
    Here is my question: In light of this strategic interest 
that spans not only our businesses, but our ability to protect 
those and our friends, will the failure of these agreements 
precipitate a longer and much bigger setback for the United 
States? I open that to any participant.
    Mr. STALLMAN. We think it will, because it will send a 
message. It will send the wrong message, as my colleague says, 
that we are not open for business. It will send the message 
that, well, you may want to engage in negotiation with us, but 
at the end of the day, once we agree that we have an agreement, 
what are you going to do to pass it? Are we going to put our 
gives on the table, if you will, out there where we have to 
take political heat in terms of what the other countries are 
thinking, and then the U.S. takes it back, and the agreements 
are not passed? And when you are involved in trade negotiations 
and know trade negotiators, that sends a real message.
    Mr. DUCKER. Yes, sir, Congressman Davis. I would agree with 
my colleagues on the open-and-ready-for-business piece is a 
very important part of this. I have been to Geneva many times 
meeting with the trade delegations of the WTO, and always I am 
struck by the fact that they want American leadership in terms 
of the negotiations and moving things forward. And I believe 
establishing that leadership and reinvigorating our trade 
agenda is very important for our country and the world writ 
large.
    Mr. DAVIS. Following on a point, FedEx is kind of at the 
tip of the spear with where you take and pick up many of the 
parcels that are in transit. Do you feel that this lack of 
absence on our part of activating these free trade agreements 
would, in fact, cause a significant setback to the larger 
interests of the country besides business?
    Mr. DUCKER. Yes, sir, I do. And I would point out that 
several of my colleagues have talked about the global supply 
chain. Today's business has changed so radically. Really if you 
have the Internet and FedEx to deliver to almost anywhere in 
the world, you can be in business. That helps small business. 
That helps innovation. That helps entrepreneurship. And frankly 
speaking, removing trade barriers, whether they are tariff or 
nontariff, around the world puts people in business. And I 
think it is very helpful to move the trade agenda forward on a 
positive basis.
    Mr. DAVIS. Your actuarial analysis, Mr. Toppeta.
    Mr. TOPPETA. What I would say is this: The country of these 
three that I know the best is Korea. I have been working with 
the Korean market for the last 20 years, and that is a 
strategically very important country for the United States. I 
don't think there is anybody who would debate that. I can tell 
you that our friends in Korea, the Korean Government, will be 
very disappointed, very disappointed, if we can't make this 
free trade agreement happen, and I think that will hurt us.
    Mr. BIEGUN. Certainly we are not oblivious to the 
geopolitical considerations in these free trade agreements. All 
three countries are good friends of the United States of 
America, and every effort should be made to find a way forward. 
But I am also encouraged that, in fact, we are on the cusp of 
moving forward with one of the agreements, the Korean Free 
Trade Agreement, that through a good process in this committee 
has produced a good outcome. So we want to encourage the 
committee along these lines. We think that it produces a good 
outcome.
    Chairman CAMP. Thank you.
    Mr. Lewis from Georgia is recognized.
    Mr. LEWIS. Thank you very much, Mr. Chairman. And I thank 
the members of the panel for being here.
    Mr. Biegun, I have two brothers that worked for Ford for 
many, many years in Detroit, hosts of other relatives, and many 
are retired. I want to thank you for your leadership of Ford 
and for all that you do. But I want to ask you a simple 
question. Do you think it is more important to rush to get an 
agreement signed into law, or is it better to take our time and 
try to get it right?
    Mr. BIEGUN. Thank you, Mr. Lewis, and thank you for your 
brothers' service to the company.
    Obviously our track record speaks for itself. We fought for 
3 years to get the Korea Free Trade Agreement right, and we 
felt that was critically important to the people of Michigan 
and to the people of the Ford Motor Company on a global basis, 
and also to the principle of free trade. Free trade agreements 
should open trade between markets.
    But again, as I said a moment ago, we are quite encouraged 
by the outcome, that through a thorough effort, through the 
leadership of the members of this committee, we got to that 
point.
    So, yes, we should get them right. There is a balance in 
getting them right, and getting them through, and getting them 
on a timely basis, but the committee in the recent past has, I 
think, demonstrated the right formula for that, and I encourage 
that to continue.
    Mr. LEWIS. I want to go back for a moment to the question 
that Mr. McDermott raised. Do you think that--and I was 
somewhat not necessarily disturbed, but the way some of you 
responded. You are not suggesting that we have a double 
standard when it comes to trade; that we have one standard in 
America and one standard abroad? Do you believe or feel that 
trade agreements should be a reflection of the core values that 
we have as a Nation and as a people?
    Mr. PAULSON. I would like to answer that in the sense of 
that as these trade agreements have lingered and laid about, we 
have had a lot of opportunities to second-guess the hard work 
that was put in to develop these.
    I suggest that the stakeholders such as yourself, Mr. 
Lewis, would be involved with the new trade agreement formation 
right at the beginning so that you can form your ideas and 
bring those in with our U.S. Trade Representative so he knows 
how to focus his direction, and not look back so much on we 
could have, would have, should have. Let us move forward with 
new ideas.
    Mr. LEVIN. Would the gentleman yield?
    Mr. LEWIS. Yes.
    Mr. LEVIN. I just want to tell you, Mr. Paulson, we 
actively engaged the USTR on these issues in the previous 
administration, and there was simply a disagreement whether 
core labor standards and international environmental standards 
should be in trade agreements.
    It wasn't the lack of engagement on our part, and as soon 
as we had the power to make it happen, it happened. It is true 
in Peru, and it is true in Korea. The previous administration 
and the Korean Government would simply not negotiate changes to 
open up their market, the most closed automotive market in the 
world.
    We were engaged endlessly, as we have been relating to 
conditions in Colombia. It is not a lack of engagement; it was 
a lack of willingness on the part of the previous 
administration to tackle these issues. The Korean Minister told 
Mr. Rangel and me, we will not discuss. Then we had a new 
administration that said, in order for that agreement to move, 
you have to open up your market and have two-way trade. And if 
you gentlemen believe in two-way trade, and I hope you do, and 
standards as reflecting American values, remember we have been 
trying to bring that about. With Korea it finally, I think, is 
happening. And to simply say you balance, we don't want to 
support imbalanced trade agreements in terms of two-way trade 
or in terms of basic international standards on worker rights 
and the environment.
    Mr. BRADY. Will the gentleman yield?
    Mr. LEWIS. Yes.
    Mr. BRADY. I was just going to make a point that I really 
think the breakthroughs on these two agreements, Panama and 
Colombia, came several years ago when Republicans and Democrats 
in Congress sat down together and came forward with a May 10th 
agreement that addressed issues like labor rights, environment. 
And the result, Colombia has adopted eight of the ILO 
conventions, six more than the United States itself has 
adopted.
    Mr. LEWIS. I take back my time. And----
    Chairman CAMP. The time has expired.
    Mr. LEVIN. That is just not----
    Chairman CAMP. I would just say I am not sure that the 
characterization of the back and forth is really particularly 
helpful to the debate here, because, as Mr. Brady pointed out, 
there is a May 10th agreement. And frankly, the real effort on 
Korea occurred after November, the intense discussions. The 
President made the announcement in July or June, but the real 
effort occurred after November.
    But at this time I would yield to Mr. Reichert for 5 
minutes.
    Mr. REICHERT. Thank you, Mr. Chairman.
    I will just mention briefly that I also am from the State 
of Washington, as is Mr. McDermott. Unlike Mr. McDermott, 
however, I have only been on this committee for 2 years, and I 
have been waiting for a hearing on trade agreements.
    I am pleased to have you here today, and excited about 
having our first trade hearing, and am looking forward to 
Korea, Colombia and Panama all being brought to the House floor 
for our votes.
    As you can see it, if we work together, we can get this 
done. And you have a responsibility, as has been mentioned, and 
each of us here at the dais have our responsibilities, and 
hopefully together, Democrats, Republicans and the community in 
the business world out there across the country, can all work 
together to accomplish our goals of creating more jobs and 
spurring this economy on.
    And one statistic that I want to refer to that was 
mentioned in the panel is this doubling export initiative. As 
was mentioned, Mr. Tiberi and myself are members of the 
President's Export Commission. We want to double exports, but 
at the same time if you look at the figures, the last time we 
did that was between 1995 and 2007, and, again, there were nine 
trade agreements that were passed during that period of time, I 
think, that made that possible. So I think it is absolutely 
critical, and I think everyone in the hearing today and 
everyone in this room and everyone of us sitting here knows it 
is absolutely critical, that we pass these agreements, we have 
fair agreements and move forward with these agreements to 
create jobs. Not only at an economic level is it important, but 
also as we look at our security across the world.
    So I really want to focus on what we lose as we have 
languished somewhat. And specific to the Korean agreement, we 
know that the EU and Korea has an agreement that will take 
effect on July 1st, and here we sit. If you could explain--and 
any one of the panel members, please--what will the losses be 
as you look forward to our inability to--and what have your 
losses been--in jobs, in dollars, in the economy here in the 
United States as we have not been able to pass these 
agreements, and other countries have moved forward with their 
agreements, and we are losing market share? Mr. Ducker or 
anyone who would like to respond to that.
    Mr. PAULSON. Thank you.
    The International Trade Commission has estimated for the 3 
agreements, 13 billion in new U.S. exports. So if we divide 
that, considering that Korea is the largest of these, there 
will be a huge amount of loss and jobs that will occur. It also 
gives an opportunity in the case of the EU to enter in in the 
sense of that--and I often use standards, and actually 
standards for employees' safety and health. They will bring in 
these EU standards, which are in my business, very critical, 
and then we will be having to fight against those standards 
versus, for example, the steel industry that is begging for our 
products in Korea. So it will be a change of focus aimed at 
looking towards Europe as opposed to looking towards the United 
States.
    Mr. REICHERT. Mr. Ducker, you mentioned the Chamber of 
Commerce numbers of losing 380,000 jobs and $40 billion worth 
of business. Specifically how does that affect us in a negative 
way as we look forward into the future as these agreements are 
not made and other countries are moving forward?
    Mr. DUCKER. That is a widely used model, but the chamber 
did, in fact, estimate 380,000 jobs, 40 billion lost. And 
frankly we operate in a fiercely competitive world, and the 
industrial strength of other countries is growing, and they are 
aggressively pursuing trade agreements to expand to the 
economic benefit of their workers and their populations, the 
benefits of free trade.
    Mr. REICHERT. So it means fewer products sold across the 
country because other countries are selling their products, and 
we can't sell the cars, we can't sell----
    Mr. DUCKER. Absolutely, sir. It is, as I said, fiercely 
competitive, and American products do have alternatives 
manufactured in other places. And a lot of what has been 
discussed in terms of speed in these trade agreements, FedEx is 
in the speed and reliability business. So we think there has to 
be balance, but due speed with passing free trade agreements 
and moving the trade agenda forward because others are not 
standing still.
    Mr. REICHERT. Thank you, Mr. Chairman.
    Chairman CAMP. Thank you.
    Mr. Boustany is recognized.
    Mr. BOUSTANY. Thank you, Mr. Chairman. Thank you for 
holding this hearing, and I look forward to many more hearings 
on trade policy as we go forward.
    Over the past 2 years, the Secretary of State, Hillary 
Clinton, has traveled around the globe and based our foreign 
policy on three pillars: diplomacy, developmental aid and 
defense. It has now become glaringly apparent that we are 
missing something, and it is a trade agenda, and the failure to 
move forward on these three agreements puts American prestige, 
American leverage, American credibility at stake, at risk. And 
nothing short of American competitiveness is really the issue 
here.
    Now, speaking of American competitiveness, I want to drill 
down to something earlier, because we need to make sure that 
everybody is included in this in this country in this equation, 
which means rural America. Mr. Stallman, you mentioned earlier 
some numbers, and you mentioned the fact that with the $3 
billion in exports in agricultural trade, we would see perhaps 
27,000 new jobs created as a result of that. Now, I take it 
those are direct jobs, jobs that are directly involved in the 
production of commodities, the shipment of commodities and so 
forth.
    But if you drill down even further and take a look at the 
indirect jobs, take every small community. I live in Louisiana, 
rural Louisiana. I have got rice farmers, soybeans. Take a 
community like Crowley, Louisiana, or Abbeville, Louisiana, 
very dependent on agriculture and agricultural exports for the 
entire economy of that small town. You are talking about jobs, 
you know, convenience stores, dentists' offices, small rural 
hospitals. Do you have a sense of what number of indirect jobs 
we would see either protected or created as a result of just 
doing these three free trade agreements?
    Mr. STALLMAN. We have not analyzed that to give a specific 
number, but I think it is obvious. I drive through Crowley, 
Louisiana, at least twice a year. And, for instance, just take 
rice; the local rice dryer that employs some people, the 
equipment dealer, the suppliers. If you don't have the ability 
to export in this case rice specifically, which we export 
roughly half of our rice in this country every year, all of a 
sudden you don't have those jobs, you don't have that business. 
So it is a direct impact on rural communities in America. And 
you can just spread that same principle across all of the 
production areas of agriculture.
    Mr. BOUSTANY. So it is critically important that we make 
the case that job growth is linked to exports. And the case can 
be easily made, I think, in rural America, and as we try to 
build consensus to move forward on these trade agreements and 
future trade agreements, we have to get the American people on 
board with this. And I think focusing on rural America, 
focusing on small business development is going to be critical 
in this.
    I don't think there is any way we can actually double 
exports in the time period that the President is describing, 
the 5-year time period, unless we include small businesses and 
medium-sized businesses and their connection to the modern 
supply chain. And I have seen some of the figures related to 
all three of these agreements where a lot of the exports will 
be on the part of small- and medium-sized firms, and I would 
welcome any of you to comment on that.
    Mr. DUCKER. Congressman Boustany, I would just give you one 
small example, if I could. And I couldn't agree with you more. 
Small and medium enterprises are going to drive a large part of 
that.
    I would just talk for a moment about the Memphis hub, and 
it is like a small city at night, perhaps 10,000 employees 
working in one small area at night. And U.S. exports are one of 
the fastest-growing parts of our business. But Memphis is the 
number one cargo airport in the world, and Memphis is not the 
number one large-sized city in the world. We outpunch our 
weight in the global economy because of exports and connecting 
the world with what we deliver. And the benefits of that flow 
through, as you say, to the dentists' offices, to the grocer 
and to many parts of the economy. So that is one small part 
where facilitating trade and facilitating global markets to 
small and medium enterprises has a dramatic impact locally.
    Mr. BOUSTANY. Thank you.
    Chairman CAMP. Thank you very much.
    Mr. Neal is recognized.
    Mr. NEAL. Thank you, Mr. Chairman. I want to thank our 
panelists as well.
    I think the argument that is being offered here is that 
sometimes to subordinate human rights concerns and others in 
terms of getting some sort of economic liberalism a foothold, 
that that in turn will bring about greater demand in heretofore 
closed societies for more free choice not only in the 
marketplace, but, just as importantly, in the polling place and 
other endeavors.
    Now, I think that it bears the reminder, however, that with 
NAFTA and China, that we were instructed that they could not be 
amended. I think that is a part of the conflict here today. We 
were instructed that they could not be amended, that it was all 
or nothing. And here comes the Peruvian bilateral in which we 
demonstrated that you could, in fact, amend that agreement, 
which I supported for the purpose of including human rights, 
the right to organize, and environmental concerns, and the 
Peruvian Government adopted it with little fanfare.
    Now, Mr. Toppeta, I have been very supportive of your 
industry's efforts, as you know, over the years to expand 
globally, but I think as part of this discussion, there ought 
to be at least some reasonable discourse about the following 
idea. It has been difficult, has it not, for your industry in 
China? That is a fair assessment, isn't it?
    Mr. TOPPETA. Yeah, I think that is a fair assessment, sure.
    Mr. NEAL. And the idea of a forced partnership in a 
sovereign capitalist nation where you can never control more 
than 49 percent of your industry, and they really make a lot of 
basic decisions. And, in fact, without saying so, there is one 
of your large competitors that has decided to back away in 
recent weeks.
    How do we get their attention if we don't make the argument 
here that economic liberalism, including those basic tenets of 
the Peruvian agreement, the right to organize, campaign for 
human rights and environmental concerns--how do we get them to 
move the argument forward?
    Mr. TOPPETA. Look, it is a great question. I am not sure 
that I have the answer to it, Congressman. I think that in each 
of these cases, we fully understand the need to address a 
number of different concerns. The issue that presents itself is 
can you solve all of the problems in one trade agreement, and 
if you attempt to do that, you probably wouldn't get the trade 
agreement.
    And with all due respect, I think we have to recognize as a 
country that these are negotiations, these are negotiations, 
and negotiating with a country like Peru may not be the same as 
negotiating with a country like China. So I think there are 
difficulties in a number of these markets. We are correcting, I 
think, some of them in some of our agreements, but we are 
certainly not getting at all of the issues. The question for me 
is do you want to make some progress with the prospect of 
making more later?
    Mr. NEAL. Fair enough. But it also, I think, notes 
reminding ourselves that in Panama, the reason that the 
Panamanian bilateral did not move forward is because the Bush 
administration took the position that I believe the speaker of 
their assembly had been involved in the murder of an American 
soldier, I believe, the result of which was it was the Bush 
administration that pulled back the Panamanian bilateral. It 
wasn't the slowness of this committee, whether our Republican 
friends were in the majority or we were in the majority. That 
was an administration position not to submit that proposal, I 
believe.
    Mr. TOPPETA. The only thing I can say about that is I am 
not here certainly and my company is not here blaming anybody. 
What we are talking about is let us move forward. Let us move 
forward. We have three good agreements. We think we should move 
forward on those, and we think it would be beneficial for the 
country to move forward on those.
    Mr. NEAL. The last point that I will make is this. China 
has not proved to be quite what the industry assumed that it 
would be, has it?
    Mr. TOPPETA. I think China has a lot of challenges, and it 
is not alone in that. It is an attractive market for a lot of 
people because of its size, because of its growth, but it does 
present difficulties, no doubt about it.
    Mr. NEAL. One last comment, Mr. Chairman.
    Chairman CAMP. The committee needs to move forward.
    Mr. NEAL. If we don't pursue this here, then your job 
becomes more difficult, isn't that so, by pushing them?
    Mr. TOPPETA. Our job is difficult already. There is no 
doubt about that.
    Chairman CAMP. Thank you. The gentleman's time has expired. 
And I would just say that the ILO core labor rights found in 
the Panama agreement are also the exact same language found in 
the Korea and Colombia agreements as well.
    Mr. NEAL. Mr. Chairman.
    Chairman CAMP. Yes.
    Mr. NEAL. That wasn't the point that I tried to make. The 
point that I tried to make, it was the Bush Administration that 
pulled back on Panama; isn't that true?
    Chairman CAMP. I think that this idea of which 
Administration did what isn't particularly productive. I think 
we can find certainly gaps in both--certainly the Bush and 
Obama Administration on these issues. And I just think we are 
here to talk about what is before us, which is how do we move 
forward now on these agreements.
    Mr. NEAL. I agree, Mr. Chairman. The point that I am making 
is that there has been some testimony or some inquiry this 
morning from members of the panel that have suggested that 
there was foot dragging on the part of the minority with some 
of these bilateral proposals, and I think that the point that I 
tried to make, which I assume is based on fact here, and that 
is that it was the Bush administration that pulled back----
    Chairman CAMP. The fact is we have had no hearings on trade 
over the last 2 years, and that is not an Administration issue; 
that is a committee issue. I wish we had. We didn't. We are 
trying to have hearings now. I think these are productive 
discussions. But it really is Mr. Smith's time, and you are 
recognized for 5 minutes.
    Mr. SMITH. Thank you, Mr. Chairman. And to the panel, thank 
you for sharing your expertise and insight.
    Obviously we are talking about opportunities for the future 
here, and I am intrigued as we do have this discussion. And I 
don't want to repeat what my colleagues have said about losing 
market share to our competitors around the world, but we do 
know that it is happening.
    Mr. Stallman, if you could reflect a little bit for 
agriculture on the nontariff trade barriers and how these trade 
agreements will help address that.
    Mr. STALLMAN. A lot of the problems with agricultural 
trade, as in other industry sectors, are the nontariff 
barriers. For agriculture particularly you have the sanitary 
and phytosanitary barriers. In many cases a bilateral agreement 
is much more able to address those issues between two countries 
in terms of health standards, food safety standards, those 
kinds of things, than depending on the WTO. So in that respect 
many times in bilaterals you can more directly address those 
issues than you can with the international agreements.
    Mr. SMITH. Anyone else wishing to respond?
    Mr. DUCKER. Well, I am just going to add a comment that 
many of the provisions in these FTAs level the playing field. 
And if you are in our business, you compete against non-U.S. 
large companies which don't operate under the some of the same 
provisions. But these trade agreements prevent cross-
subsidization by government-owned and -assisted competitors. 
They define contours of postal monopolies or fees that can be 
assessed to serve markets. They provide expedited customs 
procedures. It really simplifies and codifies doing business in 
many of the foreign countries, and that is a great benefit of 
the FTAs.
    Mr. SMITH. Mr. Biegun.
    Mr. BIEGUN. Mr. Smith, in the case of the Korea Free Trade 
Agreement, in the renegotiated text, it is some of the most 
far-reaching effort we have seen in free trade agreements to 
create a level playing field on standards. We are now expecting 
adequate notice in advance of new regulations, transparency in 
how those regulations are implemented, and there are 
enforcement mechanisms in the FTA that will be meaningful if 
those regulations are used simply to exclude imports. So we are 
encouraged that with the shoulder to the wheel, we can get 
agreements like this that will open the market.
    Mr. SMITH. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Chairman CAMP. Thank you.
    Mr. Becerra is recognized.
    Mr. BECERRA. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for your testimony and your 
work.
    I would like to just begin by acknowledging that I don't 
think there is an American that wouldn't believe that trade is 
essential for us to continue to be a growing and vibrant 
economy. What makes us strong is the fact that not only do we 
sell to Americans, but we sell to everybody in the world, and 
everyone loves American products. In fact, everyone loves 
America, and that is why so many people wish to come to this 
country as well. So our brand is good not just in terms of our 
product, it is good in terms of our country and people wanting 
to be here.
    The difficulty I think we get into is we try to ignore that 
trade causes consequences, and they are not always the 
greatest. And Mr. Tiberi tried to point that out in terms of 
Ohio. I can point it out in terms of southern California, where 
we depend so dramatically on trade because we have the largest 
ports in the Nation right there in Los Angeles. But to the 
degree that we try to make it sound like every trade deal is a 
good trade deal regardless of what it says, that is where we 
lose, I think. That is where we lose Americans. So when they 
hear that in 2009 we got to sell to Koreans 6,000 American 
vehicles, yet they got to sell to us--in other words, they 
exported to us, we imported from them and bought 476,000 
vehicles, they don't need to have degrees in rocket science or 
in trade to know that something is wrong. And they just simply 
want to know that it will be level trade, that it will be a 
fair deal for Americans.
    When you take a look at these deals, whether it was the 
situation for the auto industry with regard to Korea or, as we 
pointed out, the difficulties with Panama being a tax haven, 
there are reasons why some of these deals haven't gone through 
as quickly as we might like. But let us not just say willy-
nilly we must have a trade deal, because a bad trade deal has 
major consequences. And if you think about our recent past in 
the last decade or so, American multinational companies have 
reduced the size of their domestic workforce by about 1,900,000 
Americans, yet their foreign employment has gone up by 2.4 
million in that same time. Americans aren't dumb. They see that 
we are exporting as many U.S. jobs to places as we are 
products, and what they want to know is that as we export those 
products, we want Mr. Paulson and his company and everybody 
else to continue to create jobs here because you are exporting 
more.
    And so I think what is important to remember is that we are 
trying to make sure that this is a good deal, not just a trade 
deal, and if we do that right--well, not just for one industry, 
but for every industry.
    Now, I have a question for all of you gentlemen. If you 
could just give me a quick answer. Currency manipulation. We 
have heard a lot about it. We know some countries devalue their 
currency. That makes their products cheaper to buy. It also 
makes our products more expensive to buy because it makes the 
U.S. currency look like it is valued at a higher price than it 
should be. Do you believe that we should tackle the issue of 
currency manipulation? And obviously the focus has been on 
China. But do you believe we should address the issue of 
currency manipulation now?
    Mr. PAULSON. Thank you.
    I do not----
    Mr. BECERRA. Just a quick yes or no, if you could. I tried 
to make it a very direct question because I know that we could 
go into that forever, but I am going to lose time, and I want 
to get back to the trade deals.
    Mr. PAULSON. I don't think we should address the currency 
manipulation within the trade agreement.
    Mr. BECERRA. And I don't mean within the trade agreement; I 
mean just address it generally as quickly as we can.
    Mr. PAULSON. Yes.
    Mr. BECERRA. Thank you.
    Mr. Stallman.
    Mr. STALLMAN. Not in trade agreements, but in the context 
of international agreements with our countries.
    Mr. BECERRA. Thank you.
    Mr. Ducker.
    Mr. DUCKER. I would agree with Bob. I mean, that is just 
one of many issues.
    Mr. BECERRA. Yeah. And by the way, I am not asking that we 
address the currency issue in these trade deals. I am just 
asking if we should tackle that as an issue of importance to 
American consumers.
    Mr. TOPPETA. I would agree with the other panelists. 
Completely agree.
    Mr. BECERRA. I know the estimates are out there that we 
lose somewhere between a half a million to 1.5 million jobs 
because of this currency manipulation that goes on throughout 
the country, so I hope we can deal with it and deal with it 
immediately.
    I have one final question I would like to ask. Mr. Toppeta 
was extremely virtuous a moment ago in responding to some 
questions by Mr. Levin. You mentioned that even if these trade 
deals had left out your industry and your company, that you 
think that we might still want to go forward and approve these 
deals.
    Now, we are going to probably, I hope soon, in this 
committee and in this Congress deal with the issue of tax 
reform. And I would like to know if you would like to be as 
noble as well with regard to tax reform and virtuous so that if 
tax reform occurs, and we by chance don't deal with your 
particular industry or company, that you believe that we should 
still do the tax reform if we don't tackle the issues that are 
most important to your company and to your industry. I will try 
to leave it brief. Now my time is expiring, so if I could just 
get a quick yes or no from the panel.
    Mr. TOPPETA. I will say that one is way beyond my 
competence. So I have no answer for you.
    Mr. PAULSON. I believe tax reform is important for 
manufacturers.
    Mr. STALLMAN. Our policy indicates we should work on tax 
reform, but we will wait to see the details.
    Mr. BECERRA. I see you all tap dancing very, very well. 
Thank you.
    Chairman CAMP. Has everyone had a chance?
    Mr. BECERRA. Mr. Ducker and Mr. Biegun.
    Mr. DUCKER. I was just going to say, yes, I think tax 
reform is important in many different aspects. But corporate 
taxes are among some of the highest that we deal with in the 
world and--so, yes, we should deal with tax reform.
    Mr. BECERRA. Thank you.
    Mr. Biegun.
    Mr. BIEGUN. We will be here.
    Mr. BECERRA. Thank you very much, Mr. Chairman. I 
appreciate it.
    Chairman CAMP. Mr. Buchanan is recognized.
    Mr. BUCHANAN. Thank you, Mr. Chairman, for holding this 
important hearing today.
    As we work to get our ailing economy back on track, I 
believe it is crucial that we work to expand our exports. I am 
pleased that the administration is pushing harder, appears to 
be pushing hard, to get the Korean agreement done as well as 
the others that we are working on.
    But I guess this is to all of the panelists. Last year the 
President stated that he wanted to double U.S. exports by 2014. 
I support this goal. Would you agree that enacting these three 
trade agreements is an important first step in reaching that 
goal?
    Mr. PAULSON. It certainly is an important first step, but 
we also have to say that the U.S. manufacturing base needs to 
become fully engaged with not just the trade agreements, but 
also with improvements to financing for us and improvements to 
taxes.
    Mr. STALLMAN. Yes, passing these agreements is essential as 
a first step. We need to continue to focus on enforcement and 
continue to negotiate other agreements to further open up 
markets.
    Mr. DUCKER. Every long journey begins with a first step, 
and this is a darn good one, and we are strongly encouraging 
that. But we need to move forward after the passage of these 
into other very important markets.
    Mr. TOPPETA. I would agree with that.
    Mr. BIEGUN. And I would just like to repeat what I said 
earlier, that we bear responsibility, too. It is not just the 
policies of the government, but it is the job of our companies 
to make these work, and we look forward to doing so.
    Mr. BUCHANAN. Thank you.
    Mr. Stallman, my State that I represent in terms of my 
district is in Florida, but looking at Florida in general, we 
have a big area of agriculture, citrus, cattle. How do these 
trade agreements affect the State of Florida, in your opinion? 
And I would be interested in anybody else's comments as it 
relates to that.
    Mr. STALLMAN. Well, I don't have the State-by-State 
breakdowns in terms of benefits, but in general all agriculture 
will benefit from these agreements based on the opening of 
markets. We know beef in particular, which I am a little more 
familiar with, these agreements--but the enforcement of current 
agreements, the work with--the work that we are doing to open 
up markets now in China and Japan and keep the market for beef 
in Taiwan, all of those things will be beneficial to beef 
specifically. But in general these agreements are what is 
necessary to improve agricultural market access for our 
products.
    Mr. DUCKER. I cannot speak specifically to the agricultural 
aspects, but I would point out that we have a very large 
international hub in Miami which serves most all of Latin 
America, and trade with Latin America certainly benefits the 
area in and around Miami and all the catchment areas that that 
Miami hub services.
    Mr. TOPPETA. I would say something similar. I cannot give 
you an agricultural angle on this, but for us, we have a large 
financial center in the State of Florida, and there is no 
question that there are a lot of jobs sustained and created in 
that area because of this. It is a finance center for us.
    Mr. BIEGUN. We have Ford stores across the great State of 
Florida, and our dealer partners in your State benefit as we do 
when the company is more prosperous and successful. They have 
been having a very good year, and we look forward to working 
with them to have more good years. Corporate health will 
definitely be improved by the ability to export our vehicles 
around the world.
    Mr. BUCHANAN. I guess the other just general question is 
this thing has dragged on. I have been here 4 years and have 
been talking about it for 4 years, these trade agreements. It 
seems like it is a big disadvantage to our companies compared 
to other people that are doing business on a partnership with 
these countries. What are your thoughts on that? My sense is we 
are losing ground and losing jobs in America.
    Mr. PAULSON. I would like to say if we put ourselves in the 
perspective of being in Colombia, and this was a promise, a 
golden promise, that was given to the Colombian people, and 
they had to make the changes, and then every day that this 
drags on, over in Venezuela somebody is laughing. And I can 
hear him all the way, sitting here.
    Mr. BIEGUN. Mr. Buchanan, in the case of Korea, the good 
news is that while the Koreans are negotiating free trade 
agreements with a number of other countries, Canada, Australia 
and Europe, none of those agreements have been completed either 
precisely because of the same issues that held ours up, because 
their market was closed to imported automobiles. Should the 
committee be able to move with some alacrity on the 
renegotiated free trade agreement, it will be timed so that we 
should not lose any ground in relation to other countries. But 
it is important that that deal come before the committee and 
get approved by the end of the summer.
    Chairman CAMP. Thank you very much.
    Mr. Lee is recognized.
    Mr. LEE. Thank you. And I appreciate all the speakers being 
here today.
    I know a lot of the questions have been brought up, but the 
positive theme that I keep hearing here is that trade is a good 
thing; that these three trade agreements at the end of the day 
will do what the American people are demanding out of Congress, 
help us create an environment where we can start employing 
American workers again. It is very simple.
    And for my colleagues, as you know, I spent my entire 
career in manufacturing up until 2009, so I am a huge advocate. 
We exported products to all over the world, including South 
Korea, and I am truly a proponent.
    And ironically we have the State of the Union this evening, 
and I am sure we all want the President to talk about economic 
issues, talk about putting people back to work. One thing I 
learned from my father, however, was that it is your report 
card that counts at the end of the day, and it is easy to give 
lip service to the fact that we want to say we want to double 
exports over the next 5 years. However, unless you put tangible 
items into place, in this case free trade agreements, will have 
a significant impact.
    It is known by experts and obviously by this panel here we 
can start doing the right thing, but we are out of time. And to 
have these trade agreements that have sat on the shelf here for 
the last several years in Congress and had inaction, and the 
President talk about this for 2 years and move none of these 
forward, I think it is very hard for us to look at the American 
people. We are not doing our job.
    Again, I hope tonight we are going to hear a different 
story from him, and that we here in this committee--there were 
several opportunities over the last few years for this issue to 
be debated if there had been concerns so that we could help 
push this along. But now at the 11th hour, trying to slow this 
up is reckless, and the American people shouldn't put up with 
it.
    We need to start moving forward on trade. There is nothing 
here that I've heard today that would stop us from doing what, 
again, American people want, allow them an opportunity to make 
a good living and take care of their family.
    So with that I yield back.
    Chairman CAMP. Thank you.
    Mr. Blumenauer is recognized.
    Mr. BLUMENAUER. Thank you, Mr. Chairman.
    I guess I would like to focus for a moment on the role 
agriculture will play in our opportunities going forward. And I 
appreciate, Mr. Stallman, your being here and your testimony. 
If my Republican friends are serious about addressing spending 
and the deficit, and I think they are, we are going to have to 
deal with the rather expensive support that we provide to 
agriculture in this country. I want to be clear that I am not 
referring to assistance that is not trade-distorting. I am not 
talking about marketing; I am not talking about paying farmers 
to help them comply with clean water and other environmental 
requirements, marketing. These are areas, research and 
marketing, I think it is legitimate for us to help and in some 
cases maybe do more.
    But since I have been in Congress and on this committee, 
and before that, trying to work to move forward with a 
bipartisan trade agenda, I have watched as our agricultural 
subsidies got in the way of moving these programs forward. I 
watched how a tiny loosening of sugar subsidies was a serious 
problem with CAFTA. We had problems with our Australian 
agreement because of sugar again and beef restrictions where we 
just simply were not going to allow free trade to operate. More 
recently we are paying--the American taxpayers are paying 
Brazil $143.3 million a year because of our lavish cotton 
subsidies, which are illegal under our agreements, in order to 
forestall retaliatory actions for intellectual property and 
other goods that would have been close to a billion dollars. We 
are going to pay that every year.
    I am very interested in wondering if the panel thinks that 
we need to continue these agricultural subsidies. Can American 
farmers compete in a global market without lavish subsidies? I 
would start, Mr. Paulson, with the National Association of 
Manufacturers. Do you support reforming our foreign policy to 
reduce costs and to avoid these international trade 
complications?
    Mr. PAULSON. Since I am a manufacturer and have been 
focused on that my whole life, I really do have to pass on this 
question.
    Mr. BLUMENAUER. I would respectfully request that maybe you 
check back, because you as a manufacturer could be hit because 
of retaliatory actions when we violate our WTO requirements. 
And as I mentioned, these are things that have gotten in the 
way of other trade agreements.
    Mr. PAULSON. I certainly believe that you have brought up a 
very important point. I am not trying to say anything about 
that. But I will say that it is just one that I am not well 
prepared to answer.
    Mr. BLUMENAUER. I am just requesting that maybe you could 
check and find out what the association's position is and maybe 
make that part of the record?
    Mr. PAULSON. Certainly.
    Mr. BLUMENAUER. Mr. Ducker, FedEx, do you have any thoughts 
about potential retaliation because of lavish foreign 
subsidies?
    Mr. DUCKER. Having spent most of all of my life in the 
services industry, I am going to refer this to Bob, who has 
much greater expertise in this area than I.
    Mr. BLUMENAUER. Would you mind if lavish farm subsidies 
resulted in retaliatory trade actions that affected FedEx? 
Would that get your attention?
    Mr. DUCKER. If people aren't living up to their agreements, 
and there are retaliatory measures, I think we should live up 
to the agreements that we have--that we have signed.
    Mr. BLUMENAUER. Like Brazil and cotton?
    Well, Mr. Stallman, I don't want the time to run out 
without turning to you. I am wondering if the Farm Bureau feels 
that we need to have the current level of subsidies for our 
agricultural products to compete internationally, like, for 
example, the illegal cotton subsidies that we are now paying 
Brazilian farmers to avoid Mr. Ducker and Mr. Paulson having 
retaliation. What is your feeling on that?
    Mr. STALLMAN. Yeah, a couple of quick points, Congressman 
Blumenauer. First, with respect to the degree of subsidies we 
have as you designate them being lavish, had we reduced our 
entire Federal budget to the extent to which those payments had 
been reduced over the course of this last farm bill, we would 
not be talking about budget deficits in this country if that 
same percentage reduction basically occurred across the board.
    Secondly, with respect to the Brazilian cotton agreement, 
that $143 million first is not going directly to Brazilian 
farmers. The second point is that was a negotiated agreement, a 
temporary agreement, if you will, while the Brazilians are 
waiting to see what we do in the context of the negotiation of 
the 2012 farm bill and in terms of nontrade distorting, the 
direct payment component in the Title I of the farm bill is 
considered to be green-boxed under WTO trade rules.
    Mr. BLUMENAUER. Do you feel that American agriculture can--
--
    Mr. BRADY. [Presiding.] Thank you, Mr. Blumenauer. Mr. 
Blumenauer, all time has expired.
    The chair recognizes Ms. Jenkins for 5 minutes.
    Ms. JENKINS. Thank you, Mr. Chairman.
    Agriculture is obviously important to the great State of 
Kansas in my district. Back in 2009, experts in ag products 
from our State, they valued the exports at more than $4.7 
billion. The pending free trade agreements are especially 
important to our farmers, who traditionally lead the Nation in 
wheat production. Kansans know the importance of international 
trade in these markets. In 2007 and 2008, the U.S. wheat 
industry dominated the Colombian wheat market with almost 70 
percent of the market share. It was valued at $330 million.
    So delaying the Colombian Free Trade Agreement has already 
hurt Kansas and American farmers. While the U.S. waited, 
Argentina and Canada began their own negotiations. And, of 
course, by 2009-2010, the U.S. wheat industry's market share 
had fallen to 46 percent, a 24 percent loss. U.S. Wheat 
Associates estimate that if the Colombian Free Trade Agreement 
is not signed, U.S. wheat producers will lose up to $100 
million per year.
    So considering the impact on the wheat industry alone, 
could you all remind us what the economic impact on your 
business or industry will be if we fail to implement the three 
free trade agreements?
    Mr. STALLMAN. Well, I think, if I understood the question, 
it was broader, it was beyond agriculture that----
    Ms. JENKINS. Yes, I would like to hear from each one of 
you.
    Mr. PAULSON. Excuse me. I thought that you were just 
talking in agriculture for that. So if we don't get these free 
trade agreements through, naturally those are estimates that 
are how much loss will be made over a period of time and the 
number of jobs. We are using again the International Trade 
Commission's estimate that it is 13 billion. I believe that 
what we will see, though, is that there will be greater losses 
beyond this because it isn't just these trade agreements. The 
whole world is watching. The world is watching what we are up 
to right at this moment. And these trade agreements have taken 
on a greater impact than just dollars and cents going back and 
forth. They become the image of how well the U.S. embraces 
other countries throughout the world, how are we out working 
with others.
    Mr. STALLMAN. You stated the case for agriculture very 
well. You used wheat specifically. I lumped in corn and wheat 
and soybeans with the particular example of Colombia and the 
fact that other countries have stepped in and begun to take 
those markets to the detriment of our agricultural producers, 
and that is why it is critical that we move forward and go 
ahead and get us back in the game.
    Mr. DUCKER. I would not put it in an agricultural context. 
You have done that quite nicely. But I would say that just one 
simple statistic that exports from this country support one in 
three U.S. manufacturing jobs. The markets are huge and immense 
outside the United States. Eighty-seven percent of the growth 
is occurring there. Ninety-five percent of the world's 
consumers are there. And one of the great vehicles to get at 
those consumers, at that economic growth, is through free trade 
agreements.
    And so I believe that while we delay, others are moving, 
because their calculators work the same way that ours do in 
terms of the numbers and the economic power that exists in 
global trade.
    Mr. TOPPETA. Thank you.
    As I said earlier, I think the main impact for us of delay 
will be in terms of Korea and the fact that the European Union 
will have an agreement going into effect in the middle of the 
year. That will mean that those competitors from Europe will be 
able to get their products to market quicker in Korea. They 
will be allowed to do more things than we are allowed to do in 
the markets. They will be subject to different rules and 
regulations, which will be to their advantage, frankly. So 
there is no question that if we don't get this Korea agreement 
done, it will hurt the insurance industry competitively in 
Korea. No doubt about it.
    Mr. BIEGUN. We support all three agreements, but in 
particular I would like to repeat what was just said. On Korea, 
the good news again is that we are on a timetable now to have 
the Korea agreement passed as soon as, if not earlier, than 
some of our major competitors.
    But I would also be remiss if I didn't point out that had 
the Korea Free Trade Agreement gone through in its previous 
form before these provisions were renegotiated, it actually 
would have had a punishing effect on our industry. So we are 
very supportive of the agreement. And the timing still affords 
us the opportunity to move, moving with alacrity, to get it 
through in time to realize that benefit.
    Ms. JENKINS. Thank you.
    Mr. BRADY. Thank you. Time has expired.
    The chair recognizes Mr. Paulsen for 5 minutes.
    Mr. PAULSEN. Thank you, Mr. Chairman. I want to thank you 
also for your leadership at the subcommittee level and being a 
part of this hearing today, and for all of the witnesses for 
their testimony.
    There is no doubt that all the trade agreements--we have 
heard about Panama, Colombia and South Korea, of course, which 
is the latest that has had the most discussion from the 
administration standpoint and now the support from a lot of our 
colleagues from both sides of the aisle. It is very important.
    I really believe free trade is a very simple concept that 
is a natural proven stimulus. It is a cost-free job creator. I 
can look at Minnesota, my home State. And we talked a little 
bit about services having 75 percent of U.S. GDP. Well, in my 
district I have got 80 percent of services occupying that 
portion of the economy, and there is a lot of jobs that are 
connected directly with that. Seven hundred forty-one thousand 
jobs in Minnesota depend on trade independently. It covers 
manufacturing. It goes all the way to services.
    And I just want to go back to a little bit of the services 
testimony, Mr. Toppeta, if that is okay, because you mentioned 
earlier--you had identified some key nontariff barriers; 
regulation, investment restrictions, due process, regulatory 
transparency, data management rules, for instance. And you 
talked a little bit about how trade agreements very importantly 
touch on those issues, because the average person doesn't 
understand that or doesn't relate to that. They always think of 
tariffs. Can you just expand a little bit about what signs you 
have seen in different markets as these implemented trade 
agreements have gone forward and actually taken place?
    Mr. TOPPETA. I am sorry. What signs I have seen?
    Mr. PAULSEN. Some of the progress, I think, within the 
markets and some of the good things that have happened.
    Mr. TOPPETA. Maybe I could--Korea specifically--here again, 
let me give you an example that I think is important, and this 
one relates to data management, and it covers really two points 
about Korea. One is this question of the desk drawer rules that 
I was talking about before, that you sometimes don't know what 
the rules of the road are.
    We had an experience in Korea where we wanted to do data 
management in a more centralized location. We believed that 
that was permissible. We had discussions with regulators about 
whether that was permissible. We were allowed to go ahead and 
do our data management outside of Korea. There was a change of 
people in the regulatory body that regulates us. They came back 
and said, sorry, you have to move your data center back into 
Korea. Now, that is an example of tremendous expense on our 
part that we had to go through partly because we didn't know 
the rules, partly because they had restrictions on data.
    I think with these kind of issues, and this is directly 
addressed in the Korea FTA, we will be able to do data 
management outside of Korea. I think that is going to be very 
useful for some companies. They may do their data management 
from here in the U.S., and that will again create jobs here in 
the U.S.
    The second thing that I would say is this will also give us 
the ability to do really a good job of data privacy protection, 
because when you have small data centers all over the world, it 
is much harder to bullet-proof those, the phrase that is used, 
to make sure that they are protecting the consumers' 
information. So this is an example where the Korea FTA, I 
think, can give us both better efficiency, but also better 
effectiveness. So that is a positive sign, I think, going 
forward.
    Mr. PAULSEN. Thank you very much.
    Mr. Stallman, let me just quickly follow up on a question 
with you, because Cargill is based right in my district, and, 
of course, you think agriculture right away. And Minnesota 
exports quite a bit, $6 million worth of wheat and corn, I 
think, to South Korea currently. Is it possible to estimate the 
effect of an increase in opportunities for one large exporter, 
what that can be on the local economy? I think you mentioned 
9,000 jobs earlier. But for a company like Cargill, the supply 
chain and the agriculture, how many new jobs locally might be 
added?
    Mr. STALLMAN. It is awfully hard to get those numbers 
precisely at the local level. But just assume that Cargill 
exports an additional billion or some fraction of that at the 
rate of 9,000 jobs per billion--those are direct jobs, not the 
indirect effects--will definitely help the local economy where 
those facilities are located.
    Mr. PAULSEN. Mr. Chairman, one more point I want to make is 
that in Minnesota in particular, we have seen successful 
exporting both in services and with manufactured goods. But the 
reality is that with our FTA partners, where we have got FTA 
partners that currently exist, there is actually an exponential 
increase in exports that have gone on. In fact, I think there 
is a 103 percent increase overall in terms of Minnesota exports 
since 2002 with the FTA partners that we have. So I think if we 
look at expanding in Korea and Panama and Colombia, we are all 
going to benefit, and it is going to open the door to China and 
other countries down the road.
    Thank you, Mr. Chairman.
    Mr. BRADY. Thank you.
    The chair recognizes Mr. Pascrell for 5 minutes.
    Mr. PASCRELL. Thank you, Mr. Chairman. I thank each member 
of the panel.
    I am a skeptic on these issues. I must say this to begin 
with: Free trade agreements through the last 4 Presidents--so 
this is not a partisan statement I am making--I personally 
believe have contributed to the job loss in this country and, 
worse, contributed to the minimizing of the dignity of the 
American worker. I did not come and rush to that conclusion. I 
have voted for trade agreements.
    But I do know that free trade is not simple, not at all. 
And I would like to start by saying to those who say that the 
jobs that will come out of the Korean FTA are going to spread 
throughout the land and contribute to our recovery, well, the 
International Trade Commission has found that net job creation 
from the Korean FTA will be negligible, while independent 
estimates have found, for instance, a subject already brought 
up, that stopping Chinese currency manipulation would create up 
to 1.2 million jobs.
    As that is my preface, I would like to ask Mr. Biegun, the 
European Union recently completed its own free trade 
negotiations with South Korea and was able to secure a 55 
percent minimum rule of origin requirement, which is a major 
problem in many different areas, not just automobiles, and a 
cap on duty drawbacks. So our agreement, on the other hand, one 
we are examining right now, contains only a 35 percent rule of 
origin and no limits on the duty drawbacks, none.
    Is Ford concerned that what I see as a major disparity, 
which would allow a Korean car company to assemble over 65 
percent of the value of a car in a regional country like China, 
will put the United States auto industry at a disadvantage 
compared to our European competitors?
    Mr. BIEGUN. Thank you, Mr. Pascrell.
    Breaking down the two issues, on the issue of duty 
drawback, the approach in the U.S. free trade agreement and in 
the EU free trade agreement are largely the same. So in that 
case there is not a significant difference. However, in both 
cases, Ford and other automobile industry companies fought very 
hard to put limits on the degree to which the Korean Government 
could use duty drawback, because, as you point out, it allows 
the import of content from outside the free trade areas.
    Mr. PASCRELL. Does that concern you?
    Mr. BIEGUN. It certainly is a concern. It is one of many 
that we have had.
    Mr. PASCRELL. What is the concern? What is your actual 
concern with what I just said specifically?
    Mr. BIEGUN. Specifically it will allow manufacturers in 
Korea to import content from third countries and then reexport 
to the United States duty free. We in the United States do not 
enjoy that privilege, so we would import the same product from 
the same country to put it in our automobile, and we would pay 
a tariff on it. So it is something of a competitive 
disadvantage.
    However, as in any free trade negotiation, it is a package 
of gives and takes. Ultimately Ford Motor Company's principal 
concern in this agreement was opening the Korean market to our 
goods. The Koreans are already well represented in this market, 
and it is our estimation that this free trade agreement will 
not sizably increase their imports, although the duty drawback 
is a competitive advantage for them.
    Mr. PASCRELL. I have folks coming into my office every day 
because we were once a great manufacturing power in New Jersey. 
Paterson, New Jersey, was the original manufacturing city in 
this country, the cradle of the industrial revolution. 
Alexander Hamilton went there, debated very severely Thomas 
Jefferson over whether we should be an industrial or--and we 
decided we needed to be a multifaceted society.
    We made the decision 35 years ago. The problem of trade 
didn't just start in the last 10 years, did it? The problem of 
trade existed now for many, many years. We lost our textile 
business 35, 40 years ago. We were the silk city of the world. 
So this didn't just happen.
    But here is what comes into my office, and I will conclude 
with this if I may, Mr. Chairman----
    Chairman CAMP. [Presiding.] Yes, you may conclude.
    Mr. PASCRELL. Folks who import--who are trying to make 
stone and send it to other places, parts manufacturers come 
into my place every week. They can't stay in existence--we are 
talking about trading products? You have to have a product to 
trade. If we don't do something about manufacturing in this 
country, if we don't do something about that phase of the 
economy, these trade deals only make certain people affluent 
and bury other people. And bury other people. And that is what 
has happened in the United States. And I would look at that 
very carefully because I think we are being put out--and I only 
use this as one example.
    My time has run out.
    Chairman CAMP. The time has expired. Thank you.
    Mr. Berg is recognized.
    Mr. BERG. Thank you, Mr. Chairman. I thank everyone that 
has come here for this hearing.
    In 2004, I guess, compared to this year, North Dakota's 
exports to South Korea have doubled. And those exports, 
primarily in agriculture, are wheat, peas and soybeans. In 
fact, right now we have a delegation in South Korea trying to 
expand that. And one of the questions that I have is--there is 
a lot of these other trade agreements that are in the mix. And 
I am assuming that every country in the world is trying to 
increase its trade so it can pull itself out of the same 
environment that we are in. So I guess my question is if we do 
nothing and say for 2 years--and maybe this is for you Mr. 
Stallman. If we do nothing for 2 years, this component of North 
Dakota's increased trade with South Korea, will that stall, or 
will that continue if we do nothing?
    Mr. STALLMAN. Well, it is hard to speculate totally, but 
the bias will be for it stalling and not moving forward, 
because you have an EU agreement with reduced tariffs that will 
be put in place, you have other countries negotiating free 
trade agreements, and if those are implemented before ours, and 
those tariff reductions occur before we have a chance to 
implement our agreement, that puts our shippers of any 
agricultural products and many other products at a competitive 
disadvantage. And the Koreans aren't going to buy from us just 
because we are nice people. We are going to have to have a good 
deal.
    Mr. BERG. That kind of leads to another question. But I 
have heard the hearing today, and I have kind of thought about 
a water tank that is up on stilts that is leaking, and we are 
trying to figure out what is the best way to fix this water 
tank, or how can we have the best water tank. That water tank 
is full of our trade and our export, and my thinking is if we 
do nothing, we may come up with a great water tank, but there 
will be no more market share. It will all be drained out of 
that tank.
    So I guess, continuing with what you said, I would just 
like a--it is going to be a tough question probably, but if we 
do nothing, and we assume that these other countries are 
engaging in free trade agreements and expanding their trade, 
what will we lose in terms of jobs in these sectors over the 
next 2 years if nothing is done? So in manufacturing, just kind 
of what is your feel and what would we lose in agriculture? Or 
in the service industry what would we lose by standing still 
and watching others take our market share in these three 
countries?
    Mr. Paulson.
    Mr. PAULSON. Thank you.
    I know we have talked about the jobs, the dollars and the 
totals. And not to avoid your question, but I want to 
overemphasize, please, that the commercial diplomacy of the 
U.S. businessmen entering these markets will by far exceed what 
all of these calculations that have been made, because as I 
move into a market and I go into Colombia, I bring with me all 
other companies that I know about and have them entertain the 
idea of also selling there.
    So again, I am trying to be clear, let the U.S. businessman 
do his job. He will bring prosperity to our country here, but 
he has to have that opportunity and level that playing field.
    Mr. STALLMAN. If we don't move forward and pass these 
agreements, work to open up other agreements, what will happen 
to U.S. agriculture is that our competitors will step in. They 
will begin to take more market share, as they already are in 
many countries, and thus, since American consumers won't be 
eating more, we will be backing up our supply. We will be 
filling up our domestic supply, increasing that supply, and 
with stagnant demand what happens is basic economics: The price 
of the product goes down.
    So that is a real concern. We won't stand still. We are 
either going to move forward, or we are going to fall backward.
    Mr. BERG. Please go ahead.
    Mr. DUCKER. I was just going to say one thing about that, 
Congressman Berg. If we do nothing, we do something, because if 
we do nothing, others continue to move. We lose market share, 
we lose jobs, we lose the future prosperity. I mean, if you 
look at NAFTA as just one data point, since NAFTA was created, 
4 million U.S. jobs have been created. There is $1 trillion a 
year in trade, in that NAFTA trade. So if we do nothing, we do 
something.
    Mr. TOPPETA. Yeah. I mean, I will second the motion. I 
think that one of the other consequences will be we will not be 
able to meet this goal of doubling our exports in the next 5 
years. I think that goal will go by the wayside if you don't go 
forward. So I think that is a significant detriment.
    Mr. BIEGUN. Since no importer sells any significant volume 
of cars into Korea, currently it is all upside. But with a good 
deal, the sooner the better. And it is a good deal.
    Mr. BERG. Thank you.
    Mr. BRADY. [Presiding.] Thank you.
    Mrs. Black is recognized for 5 minutes.
    Mrs. BLACK. Thank you, Mr. Chairman. And thank all of you 
for being here today and helping to enlighten us on the trade 
issue.
    I want to, first of all, thank you, Mr. Ducker, and how 
proud I am to have FedEx in our State and the amount of jobs 
that it has supplied in the--how it has helped our economy 
there in the State of Tennessee and particularly there in 
Memphis. As you recognize, there is almost a city there of 
itself with FedEx. So thank you for that.
    Mr. Paulson, I was interested as I read your written 
comments about your enlightenment about how trade really did 
increase your opportunity to be able to grow your business, and 
in particular you said, there was a time that I viewed foreign 
countries as competitors, and I made a whole series of 
defensive moves to protect my sales in the market, in the 
domestic market. And then you said you changed your 
perspective.
    I know one of the comments that you also made that 
intrigued me--and I do believe that being a small business 
person, that I agree that innovation, quality and customer 
service are three very, very important pieces of what makes you 
successful as a business and makes you stand out from other 
businesses. But what made you change your mind? And what were 
those factors that made you then decide to move forward in 
being a strong competitor in the international market?
    Mr. PAULSON. It didn't happen overnight; it took quite a 
while actually for me to change from a defensive position to an 
offensive position. However, I was always making some--I call 
them opportunistic exports, and it was not really a planned 
event.
    So as I started to go around the world, going to the trade 
shows, working actually with the U.S. Commercial Service, who 
is a very strong element in the United States for teaching 
people how to work outside the country, and then working with, 
like, the senior commercial officers in these foreign 
countries, I was imbued with this whole new world of 
opportunity in front of me, and through that I started making 
sales. And it was my good success and fortune that really 
turned my mind, because all of a sudden I could see there was 
so much opportunity, and the sales--I can say the sales in the 
most unusual places also through the help of the U.S. 
Commercial Service.
    Mrs. BLACK. Is your trade organization helping those 
manufacturers who have had great difficulty and some of them 
just not being able to be successful with their product; are 
they helping them to get into these foreign markets?
    Mr. PAULSON. Absolutely. The National Association of 
Manufacturers offers free help to open foreign markets and 
teach people how to work in those markets. And I can also say 
that I personally spend a lot of my own time as--and volunteer 
time of teaching others how to enter a market. One of the 
things I like to say is if you put me to work at your business, 
within just a couple of years, you will also have 25 percent of 
your sales in foreign markets.
    Mrs. BLACK. My final question may be for any of the other 
panelists. In looking at innovation, quality and customer 
service, would you say that that is the key for why other 
countries may want our products as opposed to the product being 
made in their country and the competitiveness of that?
    Mr. TOPPETA. I would comment on that. I think that is 
absolutely right. We see in all of these markets that customers 
are looking for innovation in products, and frankly, doing 
business with a global company and a U.S. company is something 
that they very much desire because of the innovativeness and 
because of the quality of the service that is provided. So I 
think it is definitely an advantage.
    Mr. BIEGUN. And, Congresswoman, this is where I keep coming 
back to our responsibilities. And that is our responsibility. 
But I can tell you that Ford Motor Company in our 106 years in 
business around the world has never found a customer that wants 
to pay more for less quality or for a lower--less desirable 
product. We are absolutely convinced that given the opportunity 
to present our vehicles to customers around the world, they 
will make a choice based upon best value for the money.
    Mr. DUCKER. Congresswoman Black, I would like to thank you, 
first of all, for your service to our State and to our country. 
But I would say personally about our trade missions, India is 
one great example. Most of the group is dominated by small 
companies, and while we were there, many trade agreements 
signed and the fortunes of those small businesses greatly 
enhanced by being open and exposed to innovative, new American 
products that they could take to market in India. So, yes, I 
would definitely agree that innovation, certainly creating 
value, is one of the greatest things that we bring.
    Mrs. BLACK. So if we can remove barriers, we have the 
products with the innovation, the customer service and the 
quality that will make us very competitive. Thank you.
    Mr. BRADY. Thank you.
    Mr. Roskam is recognized for the final question.
    Mr. ROSKAM. Thank you, Mr. Chairman.
    Those of us who are speaking late feel a little bit like 
the Jimmy Stewart character in ``Mr. Smith Goes to Washington'' 
when the Chamber clears out. So thank you very much for your 
patience and the patience of our colleagues.
    It seems like one of the subtexts of today's hearing is 
that you have one side that has been making an argument or a 
suggestion about the cost of waiting, and another that is 
making an argument about the cost of moving forward. And those 
are very thoughtful questions, and you can kind of weigh them 
out. On Korea, as Mr. Rangel alluded, there was kind of a 
negotiation technique and so forth on moving forward and 
creating more opportunities for Ford Motor Company, for 
example, and other manufacturers. There is also a notion, well, 
as it relates to Colombia and Panama, there is a human rights 
element that I think most largely recognize have been remedied 
and so forth.
    But I just want to share with you an experience of a group 
that came in to see me, and it gets to this idea about no-cost 
job creation that I think is very powerful and something that 
can bring us all together to Mr. Camp's point on moving 
forward, moving this debate forward.
    I had a group come to see me sort of with talking points 
over at the Cannon House Office Building just a couple years 
ago, and they were against the Colombia Free Trade Agreement. 
And I kind of shrugged them off and I said, I don't really want 
to talk about Colombia. Let me tell you about something that I 
just heard about. And I began to explain to them--I said, hey, 
there is this opportunity for us as the United States to create 
changes within the Tax Code that actually get our manufactured 
products in a better position vis-a-vis another area in the 
world that is actually four times the size of Illinois. And I 
asked them if we were able to do that, were able to change the 
Tax Code so that Illinois manufacturers had an advantage in 
selling and taking things then to O'Hare Airport on trucks and 
flying them down to this other market that is four times the 
size of Illinois, would you all be for that? They looked around 
and kind of crumpled up their talking points, and they said, 
yeah, we are for that, that sounds good. That is the Colombia 
Free Trade Agreement. And it was sort of a revelatory moment 
for them. Now, they didn't give me the satisfaction of telling 
me that I persuaded them, but I think that the way that was 
framed up was a little bit different.
    So I guess the challenge that we have--my staff sometimes 
will come to me, my kids will come to me, and they will ask me 
a question, and sometimes I will say, well, let me think about 
it. Now, as we all know, ``let me think about it'' means one of 
two things; it either means no, and I just don't want to deal 
with it, or it means let me think about it. And I think that we 
are upon this time right now as a committee, as a Congress, and 
as a country where sort of the thinking is done. We need to 
make decisions moving forward to try to create an environment 
where worldwide American companies or little American companies 
are in the best possible footing to be competitive and dynamic, 
and that is no-cost job creation, and that is something I think 
we can all agree on.
    Mr. Biegun, let me just ask you one sort of closing 
question, and that is sort of relating that experience that I 
had with this group in my office about Colombia and the type of 
manufacturing that you mentioned when you were having a 
conversation with Mr. Tiberi a couple of minutes ago, can you 
comment on what the Colombia FTA agreement means in terms of 
Ford Motor Company production opportunity and how that ripples 
out in jobs from a no-cost job creation point of view?
    Mr. BIEGUN. Sure. Thank you, Mr. Roskam.
    As I said earlier in the hearing, we source a number of our 
vehicles that we sell--the vast majority of the vehicles that 
we sell--in Colombia from the United States, and this will 
increase our exports from the United States. So it will be 
entirely beneficial as Colombia doesn't manufacture any cars, 
and none are coming--or any cars are exported to the United 
States anyway. So none are coming the other way.
    Let me also add in the case of Korea, had you presented me 
with the Koreans' 8 percent tariff was going away, it would 
have been of no benefit to us, but we would have seen a sizable 
advantage to the Korean importers. So, there is a formula that 
we have to get right.
    But let me end with this note, that we worked through that 
with this committee, with the leadership and the chairman and 
the ranking member, and we are very encouraged with the outcome 
of this. And in conclusion we have bipartisan support; we have 
industry and labor all supporting the Korea deal. I think that 
is a model of success, and I think it shows that we can 
together, private sector and government, work these things 
through, and I think that has been a great experience for us.
    Mr. ROSKAM. I yield back.
    Chairman CAMP. [Presiding.] Thank you. I thank the 
gentleman for yielding. And I want to thank--sincere thanks to 
all of our witnesses for their excellent testimony and to the 
Members for their thoughtful questions today.
    Let me note for our witnesses, Members may submit questions 
to you for the record. If they do, I hope you will respond 
promptly in writing.
    Chairman CAMP. Our witnesses today made clear that all 
three pending trade agreements offer significant benefits for 
agriculture, manufacturing and the services sectors of our 
economy, all without requiring any new government spending. 
Continued delay will only harm the ability of American workers, 
businesses and farmers to compete in these markets as our 
competitors move ahead.
    Tonight we have an opportunity to hear from the President. 
I hope we will hear about these agreements and that he lays out 
a clear action plan and timetable for considering all three of 
them. I strongly believe that we should work together and 
consider all three agreements together, and hopefully within 
the next 6 months. I hope that we can continue to work together 
to make that happen.
    I again want to thank all of you for spending time today, 
and the committee is about to adjourn, but we will hold.
    Mr. RANGEL. I just want to remind the panel--and I really 
thought it was a great panel--of my request as to your feeling 
as to whether or not our great country is meeting your 
standards in terms of education and also health care. It is 
very, very important to many of us that we find out what your 
position really is and what are you doing about it.
    Thank you, Mr. Chairman.
    Chairman CAMP. Thank you. Thank you very much. The 
committee is now adjourned.
    [Whereupon, at 1:14 p.m., the committee was adjourned.]
    [Submissions for the Record follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
